<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Udall, Merkley, Alexander, 
Daines, Van Hollen, Capito, Leahy, Tester, and Hoeven.


                       DEPARTMENT OF THE INTERIOR

STATEMENT OF HON. RYAN ZINKE, SECRETARY
ACCOMPANIED BY:
        OLIVIA BARTON FERRITER, DEPUTY ASSISTANT SECRETARY FOR BUDGET, 
            FINANCE, PERFORMANCE, AND ACQUISITION
        DENISE A. FLANAGAN, DIRECTOR, OFFICE OF BUDGET

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning. The subcommittee will come 
to order. I would like to welcome the Secretary of the Interior 
before our subcommittee, our subcommittee here this morning. We 
are going to have an opportunity to review the fiscal year 2018 
budget requests for the Department of the Interior.
    This morning we have Secretary Zinke. He is accompanied by 
Deputy Assistant Secretary for Budget, Finance, Performance, 
and Acquisition, Olivia Ferriter, as well as the Director of 
the Office of Budget, Denise Flanagan. We welcome both of you.
    I had an opportunity to have the same panel before me 
yesterday in the Energy and Natural Resources Committee, so it 
is not a redo for me certainly because I have more questions, 
but a great opportunity for the rest of the Interior 
Appropriations Subcommittee to make inquiry on this budget 
proposal.
    We will adhere to the early bird rule this morning. I will 
look forward to 6 minute rounds of questions. Hopefully, we 
will have a chance to ask more than one round as Members.
    Turning to the budget request, it is $10.6 billion for 
programs within the jurisdiction of the Interior Subcommittee. 
This is $1.6 billion below the enacted level, a reduction of 13 
percent. And as with every President's budget request, there 
are portions of the budget that I support and other areas that 
raise concern.
    Last year at the Department's budget hearing I pointed out 
to the previous secretary that the President's request included 
numerous budget gimmicks to provide additional spending for 
popular programs without any offsets. But, Mr. Secretary, the 
budget that we are looking at now, in my view, does not use 
gimmicks, but it does propose some real cuts to the programs. 
So I welcome the opportunity to look carefully at all the 
programs that receive appropriations in the Interior bill to 
evaluate whether the choices your budget makes are worthwhile.
    We should consider whether reforms could help improve 
efficiency, whether some activities may be better performed by 
the States, and whether there are duplicative programs that can 
be streamlined. I am not in favor of the wholesale elimination 
of or drastic reductions to programs simply to hit a budget 
number.
    And I have told many of your predecessors that the 
Secretary of the Interior is oftentimes referred to as Alaska's 
landlord. When we were up in the State together, you referred 
to us as being partners. I certainly prefer that relationship 
to being a landlord, but I think we recognize that when a 
Department has authority over 220 million acres in a State like 
mine, and that does not include the millions of acres of the 
Outer Continental Shelf waters, it certainly puts you in a 
unique position as Secretary. And so we want to make sure that 
you have got the resources that you need to meet the 
Department's responsibilities.
    So some of the proposed reductions, as I have mentioned to 
you, I find troubling. For example, the State of Alaska and 
Alaska Natives are still waiting for the Department to convey 
title to millions of acres of their lands more than 50 years 
since statehood. So it is tough for me to accept a 34 percent 
reduction to the Department's programs that issues conveyances 
to those who have waited so long to get title to their lands.
    Alaska also has one-half of all federally recognized 
Tribes. The BIA provides essential programs for Alaska Natives 
that are fundamental to the Federal Government's legal 
obligations to our first people. So I am concerned by many of 
the proposed reductions to the BIA, particularly the 
elimination of the Tribal Courts Program for which I secured 
funds for the first time in fiscal year 2016. This program 
provides critical resources to Tribal courts in some of the 
most remote villages in our State which are confronting 
widespread domestic violence, sexual assault, and substance 
abuse. So this is an area that I want to go in further with 
questions.
    Finally, I know my western colleagues share my concern with 
the proposed reduction for the PILT program of $68 million. 
This is a 15 percent reduction. PILT is absolutely essential 
for our rural areas to support roads, schools, and police.
    And while there are many program reductions that trouble 
me, I am pleased that your request made hard choices and 
provided some programs with strong funding levels. The budget 
provides full funding for contract support costs in BIA by 
maintaining the indefinite appropriation language that I first 
included in the fiscal year 2016 Appropriations bill. This has 
helped provide certainty for Tribes and protected other BIA 
programs in case additional funds are needed to meet the 
Government's legal obligations.
    I am also pleased that the request includes full funding 
for the 10-year average for wildland firefighting. This is 
something that the previous administration did not do. And 
while the budget does not include any type of fix for fire 
borrowing, it does acknowledge the problem. It expresses the 
administration's willingness to work with Congress on a 
solution.
    We had the Chief of the Forest Service before this 
subcommittee 2 weeks ago and we talked about the need, the 
imperative to work together on this. And I think a new 
administration and folks that are working earnestly to address 
this will hopefully allow us to finally resolve the problem of 
fire borrowing.
    There are a number of policy proposals in the budget that I 
strongly support such as the opening of the 1002 area in ANWR 
for energy development. In Alaska today, the Department of the 
Interior will hold an offshore lease sale in Cook Inlet. I 
think this is good news for us, but it reminds me that the last 
administration excluded some of the most promising areas in 
Alaska's Arctic OCS from its 5-year leasing plan. The 
Department's budget request commits resources to rewriting this 
plan so that important areas in Alaska and elsewhere in the 
lower 48 will receive proper consideration.
    So, Mr. Secretary, I know you have just been on the job for 
a short while here, but I greatly appreciate that you have 
taken the time already to come to Alaska, to spend time, to 
listen to Alaskans, to not only focus on resource issues, but 
to meet with so many of our native leaders, and to understand 
some of the considerations that relate to our people. These are 
challenging times when we have to make choices with budgets, 
but know that I look forward to working with you as we work to 
identify the highest priorities and making sure that you have 
the resources that you need to fulfill your goals for the 
Department.
    [The statement follows:]
              Prepared Statement of Senator Lisa Murkowski
    Good morning everyone. The hearing will come to order.
    Today, we will review the fiscal year 2018 budget request for the 
Department of the Interior. I'd like to welcome our witnesses this 
morning: Secretary Zinke, who is accompanied by Deputy Assistant 
Secretary for Budget, Finance, Performance & Acquisition, Olivia 
Ferriter, and the Director of the Office of Budget, Denise Flanagan. I 
chaired a budget hearing yesterday in the Energy and Natural Resources 
Committee with the Secretary so I appreciate the opportunity to discuss 
the details of the budget request with you further this morning, Mr. 
Secretary.
    As a reminder, we'll adhere to the ``early bird rule'' for 
recognizing Members for questions. I will call on Members in the order 
they arrive, going back and forth between the majority and the 
minority. We'll do 6-minute rounds of questions. It's my hope that 
we'll be able to do 2 to 3 rounds of questions in an effort to give 
everyone an opportunity to address the issues they wish to raise.
    Turning to the budget request for the Department of the Interior--
it is $10.6 billion for programs within the jurisdiction of the 
Interior subcommittee. This is $1.6 billion below the enacted level, or 
a reduction of 13 percent. As with every President's budget request, 
there are portions of the budget that I support and other areas that 
raise concern.
    Last year at the Department's budget hearing, I pointed out to the 
previous Secretary that the President's request included numerous 
budget ``gimmicks'' to provide additional spending for popular programs 
like the centennial celebration for the National Park Service without 
any offsets. By contrast, your budget doesn't use gimmicks--it proposes 
real cuts to programs. This is a refreshing change, and I welcome the 
opportunity to carefully examine all the programs that receive 
appropriations in the Interior bill to determine whether the choices 
your budget makes are worthwhile. We should consider whether reforms 
could help improve efficiency, whether some activities may be better 
performed by the States, and whether there are duplicative programs 
that can be streamlined.
    However, I am not in favor of the wholesale elimination of, or 
drastic reductions to programs simply to ``hit a budget number.'' I've 
told many of your predecessors that the Secretary of the Interior is 
often called ``Alaska's Landlord.'' This is not an overstatement--the 
Department has over 220 million acres in Alaska under its jurisdiction 
and that doesn't include the millions of acres of Outer Continental 
Shelf waters. The unique position of the Secretary in Alaska requires 
that you have the resources available to meet your Department's 
responsibilities.
    That's why some of these proposed reductions are troubling. For 
example, the State of Alaska and Alaska Natives are still waiting for 
the Department to convey title to millions of acres of their lands more 
than 50 years since Statehood. So it's hard for me to accept a 34 
percent reduction to the Department's program that issues conveyances 
to those who have waited so long to receive title to their lands.
    Alaska also has one-half of all federally recognized Tribes. The 
Bureau of Indian Affairs provides essential programs for Alaska Natives 
that are fundamental to the Federal Government's legal obligations to 
our First Peoples. I'm troubled by many of the proposed reductions to 
the BIA--particularly the elimination of the Tribal Courts program for 
which I secured funds for the first time in fiscal year 2016. This 
program is providing critical resources to Tribal courts in some of the 
most remote villages in our State--confronting widespread domestic 
violence, sexual assault, and substance abuse.
    Finally, I know my western colleagues share my concern with the 
proposed reduction for the Payment in Lieu of Taxes (PILT) program of 
$68 million, or 15 percent. PILT is absolutely essential for our rural 
areas to support roads, schools and police.
    While there are many program reductions that trouble me, I am 
pleased that your request made hard choices and provided some programs 
will strong funding levels. The budget provides full funding for 
Contract Support Costs in the Bureau of Indian Affairs by maintaining 
the indefinite appropriation language that I first included in the 
fiscal year 2016 appropriations bill. This has helped provide certainty 
for Tribes and protected other BIA programs in case additional funds 
are needed to meet the Government's legal obligations.
    I'm also pleased that the request includes full funding for the 10-
year average for wildland firefighting--something the previous 
administration did not do. While the budget does not include any type 
of ``fix'' for fire borrowing, it acknowledges the problem and 
expresses the administration's willingness to work with Congress on a 
solution. As I told the Chief of the Forest Service 2 weeks ago, this 
is an issue that we must work on together. The change of administration 
offers a unique opportunity with new leadership to finally resolve the 
problem of fire borrowing in a fiscally responsible way.
    There are a number of policy proposals in the budget that I 
strongly support such as opening of the ``1002 area'' of the Arctic 
National Wildlife Refuge for energy development. In Alaska today, the 
Department of the Interior will hold an offshore lease sale in Cook 
Inlet. This is good news, but it reminds me that the last 
administration excluded some of the most promising areas in Alaska's 
Arctic OCS from its 5-year leasing plan. The Department's budget 
request commits resources to re-writing this plan so that important 
areas in Alaska and elsewhere in the Lower 48 will receive proper 
consideration.
    Mr. Secretary, you have been on the job for only a short time, but 
I deeply appreciate that you have already traveled to Alaska to learn 
more about our State. You have made several policy decisions that will 
help improve our economy and the lives of all Alaskans. There is 
genuine optimism that your leadership can make a real difference as we 
face a challenging economy.
    This year's budget will require the subcommittee to make tough 
choices. I am optimistic that we will be able to address many of the 
highest priority needs of Members of this subcommittee--including some 
of those that were not included in the President's request. Mr. 
Secretary, I look forward to working with you and your staff to 
identify your highest priorities so that we can ensure that you have 
the resources you need to fulfill your goals for the Department.
    Thanks to all the witnesses for being here this morning. Now I will 
turn to my colleague and Ranking Member from New Mexico, Mr. Udall.

    With that, I will turn to my Ranking Member for his 
comments and then we will hear from you, Mr. Secretary.
    Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you. Thank you, Chairman Murkowski. 
Good to see you again, Secretary Zinke.
    Mr. Secretary, you are being asked to do a tough job by 
defending this budget request. I appreciate your willingness to 
come before this subcommittee to answer our questions this 
morning. I would like to thank Olivia Ferriter and Denise 
Flanagan from the Department. Really, appreciate you both being 
here. I recognize that the President's budget request is only a 
starting point for the fiscal year 2018 budget process, but I 
want to make it clear how concerned I am by the priorities 
expressed in this document.
    In my view, a budget that cuts $54 billion from non-defense 
programs is anything but balanced. Balanced means fair and 
equitable, but there is nothing fair or equitable about this 
budget request. Instead, what we have before us today is a 
proposal to slash more than $1.5 billion from the Interior 
Department's budget. This budget claims to take care of the 
agency's core functions by focusing on existing Federal lands 
rather than grants or new land acquisitions.
    The result is a budget request that cuts the payment in 
lieu of taxes program by 15 percent. It cuts 84 percent from 
land acquisition and State grants funded through the Land and 
Water Conservation Fund. Grants and science programs are 
slashed. And in the end after all the other hard choices, the 
budget still guts the budgets of the bureaus that care for 
existing Federal lands.
    Funding to operate national parks is cut by almost $200 
million. BLM operations are cut by more than $130 million. And 
the budget takes another $100 million from the Fish and 
Wildlife Service operations. These cuts would have undeniable 
impacts to the landscape and to the ability of the public to 
access and enjoy our public lands.
    I am equally troubled by the reductions in this budget for 
Tribal programs. Funding for the Bureau of Indian Affairs is 
cut by 13 percent with nearly every program on the chopping 
block. Indian education is cut by $100 million. BIE school 
construction is zeroed out. Tribal natural resources, law 
enforcement, social services, and water settlement programs are 
slashed. Even contract support costs, payments that allow 
Tribes to run their own programs, get cut by 13 percent. We 
need to do better and I think this subcommittee will do better 
when it comes time to write our appropriations bills. And I 
look forward to working with you, Madame Chair, on that.
    But even if Congress restores these budget cuts, that is 
not the end of the story. There are a number of policy and 
management issues that still need to be addressed. Secretary 
Zinke, I was troubled to learn of the Department's recent 
decision to stay provisions of the BLM methane rule despite the 
fact that efforts to block the rule legislatively and in the 
courts have failed. I simply do not understand why it is a 
bridge too far to ask the oil and gas industry to implement 
common sense measures to ensure that natural resources from our 
Federal lands are not being wasted.
    I am also very concerned about the hostile position that 
this administration has adopted towards national monuments, 
including two monuments in New Mexico that are important 
economic engines for the region, Rio Grande Del Norte and the 
Organ Mountains-Desert Peaks. It is no secret that I am 
disappointed by your recent recommendations for the Bears Ears 
National Monument as well as the process you followed to 
develop the interim report. I am very concerned by your 
decision, Mr. Secretary, to spend only one hour with Tribal 
members while other stakeholders received substantially more of 
your time.
    I am also disappointed that your report ignored most of the 
1 million comments you received from the public, the majority 
of which supported the monument designation as it stands today. 
I am concerned about the message that is being sent to Indian 
Country about how this administration views Tribal sovereignty 
and how the fulfillment of the Federal trust and treaty 
responsibilities will be handled by the Department going 
forward.
    And finally, I am troubled by a number of recent personnel 
decisions that call into question the Department's commitment 
to its workforce and to keeping Congress informed of major 
changes to the day to day operations of the Department. These 
include the decision late last week to shuffle dozens of the 
Department's most senior career staff between bureaus. And your 
announcement just yesterday that BLM has started planning to 
reduce its workforce by more than 1,000 positions despite the 
fact that this subcommittee has not yet acted on your budget 
and we are months away from enacting a final bill to set 
funding levels for the Bureau's programs.
    We obviously have a lot to discuss this morning, Secretary 
Zinke, but even though I just laid out a number of areas where 
we disagree, I also know that this subcommittee has a 
longstanding tradition of working closely with your Department 
no matter who is in charge and look forward to that 
relationship continuing. And thank you again for joining us 
today.
    Senator Murkowski. Thank you, Senator Udall.
    Secretary, good to have you before the subcommittee. We 
would welcome your comments about the budget proposal in front 
of us. Welcome.

                  SUMMARY STATEMENT OF HON. RYAN ZINKE

    Secretary Zinke. Thank you, and it is a high honor to 
testify today in support of the President's 2018 budget for the 
Department of the Interior. I request permission to submit my 
entire statement for the record.
    The budget. This is what a balanced budget would look like. 
Now, I say that again. This is what a balanced budget looks 
like. It is a starting point and obviously as a former 
Congressman, it is a starting point to negotiate back and 
forth. I understand many Members have different priorities and 
I certainly respect that. But if we are going to have an honest 
and frank discussion about our budget in the United States and 
continuing borrowing, this is what a balanced budget would look 
like in our view.
    I fully appreciate and understand the Department of 
Interior touches the lives of more Americans than any other 
Department. In fact, nearly every American that lies within an 
hour of our public lands enjoys them and those of us in the 
west especially live in the legacy of Roosevelt. We deliver 
water to the west. We manage the national parks and wildlife 
refuges across the country and provide energy development on 
shore and offshore.
    In fact, as you know, the Department of Interior covers 
roughly about 20 percent of our Nation's lands and covers 12 
time zones. The President's budget proposes $11.5 billion and 
saves the taxpayers about $1.6 billion. We have made strategic 
investments to ensure that the Nation's energy and national 
security are met and there are many, many difficult choices.
    The President's budget is an all of the above energy 
strategy and does not favor coal, oil, gas over alternative 
energies. It is all of the above. We have a prudent focus on 
boosting revenues through legislative proposals to raise about 
$5.8 billion.
    Revenues. Everyone is focused on the $1.6 billion in cuts. 
Let me for a moment talk about revenues. In 2008, the 
Department of the Interior made $18 billion alone just in 
offshore revenue. Last year, we made $2.6 billion. That is a 
drop of $15.5 billion a year in revenue just in offshore 
revenue. When you add onshore timber production and the rest of 
the extraction and revenue sources, it gets even worse.
    There was a comment about the parks. We are $11.5 billion 
behind in deferred maintenance and repair. That is a priority, 
but we would have made that up in scale in 1 year and had $3 
billion of additional funds to invest, invest in our schools, 
invest in our treaty obligations, invest in making sure that 
our parks remain world class.
    In pursuit of that, one of my first duties as a Department 
of Interior Secretary is I established the Royalty Policy 
Committee to look at revenues across the board. That includes 
mining, oil and gas, anything that has to do with public lands. 
I want to ensure the public, the taxpayer has an interest in 
it. We are the stakeholders, and should make sure we have 
appropriate revenue. That revenue should not be arbitrary. It 
should be in a good, best faith, Ronald Reagan way, trust but 
verify, but ultimately it should reflect the values and 
importance of the public land and public interest being served. 
When it comes to infrastructure, we did reduce LWCF in land 
acquisition because clearly we need a plan to take care of what 
we have now before we invest in other lands.
    Since I have been Secretary, I have been to Utah, Wyoming, 
Montana, California, Alaska, Connecticut, Maine, New Hampshire, 
Massachusetts, to name a few, including the territories. What I 
have seen is deteriorating infrastructure, especially to the 
front line, whether it is in our national parks, Bureau of 
Reclamation, or fish and wildlife refuges. Our front line is 
short people while the headquarters and middle management seems 
to be just fine and we are shifting priority.
    As a former commander, the front line makes a difference. 
If the front line is healthy, the force is healthy. In my 
judgment, the front line, has been through cost cutting 
measures before that have stripped authority, and have stripped 
resources. We are looking at a plan to push resources from 
middle management and headquarters back to where they belong 
and are most effective, to the front line.
    The budget calls for a $35 million increase for a total of 
$766 million for national park infrastructure and that includes 
$18 million for the first phase of repairing the Arlington 
Memorial Bridge. A surprise as an Interior Secretary, is the 
things that Interior is responsible for outside of parks, to 
include the Memorial Bridge at $262 million. I own gateways and 
roads. About a third of our roads are outside our parks, and 
about a third of our roads, when you look at the level of 
maintenance and repair, it is significant.
    We fully fund fire suppression at a 10-year average. Fires 
in Great Smoky Mountain National Park and out west have cost up 
to $2 billion a year. The Forest Service, which is not under 
the Department of Interior, has 71 million acres of dead and 
dying timber to remove. That is a cost.
    We found savings by reducing Federal land acquisition 
programs, eliminating some programs, and allowing States, local 
communities, and private partners to take the leads in the 
others.
    At the end of the day, the budget represents a balanced 
budget. It is a starting point, but it is a reflection of a 
balanced budget. I hope we can work together to create income 
streams that we can rest against some of our more priority 
projects which include infrastructure and making sure we honor 
our treaty obligations. We can and will maintain our assets. I 
want to make sure we have a world class experience in all our 
public lands and deliver savings to the taxpayers and encourage 
public private partnerships, and which there are many 
opportunities, encourage responsible energy development, and 
organize and reorganize the workforce to make sure that we look 
at what Interior should be doing in the next 100 years.
    I am happy to work with you and I am thrilled to take your 
questions.
    [The statement follows:]
                 Prepared Statement of Hon. Ryan Zinke
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I am pleased to appear before you today to discuss the 
2018 President's budget for the Department of the Interior which 
provides $11.7 billion for Interior's programs. The budget also 
requests $123.9 million of discretionary Department of Defense 
appropriations to be transferred to the Department of the Interior to 
support enactment of the 2010 Compact Review Agreement with Palau.
    Of Interior's total request, $10.6 billion is within the 
jurisdiction of this subcommittee, a decrease of $1.4 billion or 12 
percent compared to the 2017 Annualized Continuing Resolution, and a 
decrease of $1.6 billion or 13.4 percent below 2017 enacted. Because of 
the timing between enactment of the fiscal year 2017 Omnibus 
Appropriations Act and submission of the fiscal year 2018 President's 
budget, my statement compares requested funding to the fiscal year 2017 
Annualized Continuing Resolution unless otherwise noted.
                         2018 budget priorities
    The 2018 budget for the Department of the Interior features 
targeted investments to further the administration's America First 
national energy goals. At the same time, this budget reflects the 
President's commitment to fiscal responsibility--proposing sensible and 
rational reductions and making hard choices to reach a balanced budget 
by 2027.
    Across Interior's diverse mission, this budget emphasizes the 
Department's crucial role in promoting economic growth. America's lands 
hold tremendous job-creating assets. Visitors to our parks spend more 
than $18.4 billion in local gateway communities, supporting 
approximately 318,000 jobs and contributing $34.9 billion into the 
national economy according to the 2016 National Park Service Visitor 
Spending Effects Report.
    In 2016, Interior's energy, mineral, grazing, and forestry 
activities resulted in $8.8 billion in revenue to the American people, 
including direct revenue payments to States, Tribes, and local 
communities. These same activities supported $136 billion in economic 
output. In addition, direct grants and payments to States, Tribes, and 
local communities provided an estimated $10 billion in economic output.
    The Department's 2018 budget reflects the administration's 
commitment to strengthen America's economic and energy security, focus 
on the Nation's infrastructure, be responsible stewards of magnificent 
lands, encourage public access for outdoor recreation, and strengthen 
tribal sovereignty and support self-determination.
                            america's energy
    The Department of the Interior is the steward and manager of 
America's natural resources including oil, gas, coal, hydropower, 
minerals and renewable energy sources. The Department has a critical 
role to play in the future energy security of our Nation as well as our 
overall economic well-being. American energy resources create jobs and 
generate significant revenue both to the U.S. Treasury and States. This 
budget proposes $791.2 million in current and permanent funding for 
energy related programs across the Department, an increase of $16.3 
million from 2017. Interior's 2018 budget supports an ``all-of-the-
above'' energy development strategy, increasing funding for onshore and 
offshore oil and gas, strengthening coal management activities, and 
sustaining the current pace of renewable energy development.
    The budget reflects the importance of offshore energy production to 
America's economic and energy security. The 2018 budget shores up 
offshore oil and gas programs with appropriated funding to continue a 
strong offshore program. The request for the Bureau of Ocean Energy 
Management features a $10.2 million increase to update the Five-Year 
Outer Continental Shelf Oil and Gas Leasing Program, consistent with 
the President's Executive Order Implementing an America-First Offshore 
Energy Strategy to expand offshore oil and gas exploration and 
production. The 2018 budget for the Bureau of Safety and Environmental 
Enforcement includes a $1.2 million increase to focus on workforce 
training, permitting, and information technologies to better permit 
exploration, development, and production operations.
    Onshore, the budget requests a $16.0 million increase for the 
Bureau of Land Management's oil and gas management program, providing a 
total of $75.9 million in appropriated funds focused on improving oil 
and gas permit application processing, streamlining leasing, and 
modernizing practices. The budget also includes $19.0 million for the 
BLM coal management program, an $8.0 million increase to reduce 
administrative processing times, simplify the lease application 
process, and improve the timeliness to complete lease sale fair market 
value determinations.
    The 2018 budget includes $78.1 million for Renewable Energy 
programs both on and offshore. Although a reduction from prior years, 
this funding level will sustain the current pace of development at a 
level consistent with anticipated project interest.
    To ensure the public continues to receive the full value of natural 
resources production on Federal lands, in April, I signed a charter 
establishing a Royalty Policy Committee of 28 local, Tribal, State, and 
other stakeholders to advise me on the fair market value of and revenue 
collection from Federal and Indian mineral and energy leases, including 
renewable energy sources.
                      the nation's infrastructure
    Interior plays an important role in maintaining and improving the 
Nation's infrastructure. Interior's national role includes managing 
significant real property assets as well as conducting reviews and 
processing permits to support national infrastructure development as 
part of a balanced multiple land use strategy.
    Interior's 2018 budget maintains the 2017 level of $98.8 million 
for Fish and Wildlife Service planning and consultation activities. 
This level maintains the FWS capability to meet its legal consultation 
requirements and avoid logjams that could delay infrastructure projects 
and associated economic benefits. The BLM budget also directs base 
funding to address siting for energy transmission projects, and 
proposes an increase in the oil and gas management program to 
facilitate rights-of-way associated with energy development projects.
    Interior manages an infrastructure asset portfolio with a 
replacement value exceeding $300 billion, ranging from elementary and 
secondary schools serving Indian children, to highways and bridges 
serving the daily commuting needs of the Washington, D.C., metropolitan 
area. Interior owns approximately 43,000 buildings, 100,000 miles of 
road, and 80,000 structures--including iconic landmarks, as well as 
dams, bridges, laboratories, employee housing, and irrigation and power 
infrastructure. Taking care of this significant asset portfolio is a 
persistent challenge. Interior's deferred maintenance backlog has grown 
to over $15 billion in 2016. Construction and maintenance funding 
across the Department totals $1.4 billion in 2018, not including the 
Bureau of Reclamation.
    From my first day on the job, one of my top priorities has been to 
prioritize efforts to address the National Park Service maintenance 
backlog. Our National Parks have 73 percent of Interior's deferred 
maintenance backlog while hosting 324 million visitors last year. The 
2018 budget for NPS includes $236.3 million for construction and 
deferred maintenance projects, an increase of $21.0 million from 2017. 
Total estimated funding for NPS maintenance and construction needs 
including estimated recreation fee revenue is $765.7 million, an 
increase of $34.7 million from fiscal year 2017. This increase will 
support targeted and measurable upgrades to a number of the NPS' 
highest priority assets including the first phase of repairs to the 
Arlington Memorial Bridge project.
                            america's lands
    In my first days in office, I issued two Secretarial Orders to 
expand access to public lands and increase hunting, fishing, and 
recreation opportunities nationwide. The 2018 budget includes $4.4 
billion for Interior's land management operations in the NPS, FWS, and 
the BLM, a reduction of $354.3 million from 2017. This includes funding 
for operational programs as well as management and maintenance of the 
national parks, national wildlife refuges, and BLM's network of 
national conservation lands. Within land management operations, the 
budget prioritizes funding to protect and conserve America's public 
lands and natural resources, provide access to public lands for the 
next generation of outdoor enthusiasts, and ensure visitor safety.
    To support land management priorities, funding for lower priority 
activities, such as Federal land acquisition projects, is reduced. The 
2018 budget emphasizes taking care of our current assets, rather than 
adding more by purchasing new land. Accordingly, the budget for land 
acquisition programs is $54.0 million, $129.1 million below 2017. A 
small amount of funding is maintained in each bureau for emergencies or 
acquisition of inholdings needed to improve management of established 
areas or to increase public access.
    To better manage and balance these responsibilities, the Department 
relies on its front-line land managers, field scientists, and partners 
to monitor, assess, and collect information about the status of 
resource conditions. Interior's U.S. Geological Survey is the Nation's 
leading source of expertise in earth and natural sciences and works 
closely with other Interior bureaus and State, local, Tribal and other 
Federal partners to help resource managers adapt to changing conditions 
on the ground. The 2018 budget includes $922.2 million for USGS 
programs, to focus on core science activities including land and water 
resources, energy and minerals, mapping, ecosystems, invasive species, 
natural hazards, and environmental health.
    The 2018 request budgets responsibly for the Payments in Lieu of 
Taxes program. The budget includes $397 million for these payments as 
part of the discretionary request, to ensure continued support to the 
communities neighboring Interior and other Federal lands without 
assuming enactment of separate legislation. The 2018 level for PILT is 
reduced 12 percent below the 2017 CR level, consistent with the total 
reduction in the Interior budget.
    A key component of Interior's land stewardship is management of 
wildland fire. The 2018 budget provides $389.4 million for wildfire 
suppression--the full 10-year average of suppression expenditures. This 
level of funding is projected to be sufficient to meet fire suppression 
needs in an average fire season without the risk of needing emergency 
transfers from other departmental accounts.
    The 2018 budget also continues efforts to address the challenges of 
water availability and drought conditions. Within the jurisdiction of 
the Energy and Water Development Subcommittee, the budget invests $1.1 
billion in Reclamation water resources to ensure millions of customers 
continue to receive the water and power that are the foundation of a 
healthy economy.
                    america's trust responsibilities
    Interior maintains strong and important relationships with Native 
and insular communities, helping to promote efficient and effective 
governance and to support nation-building and self-determination. The 
Department provides services directly, or through contracts, grants or 
compacts, to 567 federally recognized Tribes with a service population 
of nearly two million American Indians and Alaska Natives. The budget 
prioritizes support for programs serving the broadest service 
population and proposes reductions in initiatives that are more 
narrowly focused. The President's budget maintains the administration's 
strong support for the principle of Tribal self-determination, and 
efforts to strengthen Tribal communities across Indian Country. The 
budget includes full funding for Contract Support Costs and Tribal 
Grant Support Costs that Tribes incur from managing Federal Indian 
programs.
    The 2018 budget request includes $786.4 million to continue support 
for core Indian education programs, including formula funding and 
operation and maintenance funding for elementary and secondary schools, 
and support for post-secondary programs. The 2018 budget continues to 
meet Federal responsibilities outlined in enacted land and water rights 
claim settlements with Indian Tribes, and includes $160.8 million for 
authorized settlements and technical and legal support involving Tribal 
water rights, to maintain the Department's ability to complete these 
settlement requirements within the statutory timeframes.
    In recognition of the importance of the Nation's relationship with 
Palau and the Pacific national security strategy, the budget requests 
$123.9 million of discretionary Department of Defense appropriations to 
be transferred to the Department of the Interior to support enactment 
of the 2010 Compact Review Agreement with Palau.
                         management and reform
    As part of the President's March 2017, Executive Order on a 
Comprehensive Plan for Reorganizing the Executive Branch, the 
administration launched a government-wide effort to create a leaner, 
more efficient, and more responsive government. The Order directs 
agencies to begin planning to operate at the funding levels in the 2018 
budget and develop a broader Agency Reform Plan to address long-term 
workforce reductions. Interior is moving prudently with implementation 
and has put in place hiring controls to enable limited hiring, 
prioritizing filling field positions rather than office positions, and 
limiting hires in the Washington, D.C., and Denver, Colorado, areas. 
This process enables the Department to continue to fill important 
positions as work is underway to develop a comprehensive and thoughtful 
agency plan.
    The 2018 budget reduces lower priority programs $1.6 billion below 
2017 and supports 59,968 full time equivalents. This represents an 
estimated reduction of roughly 4,000 full time equivalent staff from 
2017. To accomplish this, the Department will rely on a combination of 
attrition, reassignments, and separation incentives. Actual attrition 
rates and acceptance of separation incentives will determine the need 
for further action to reduce staffing.
    Reducing Interior's physical footprint and seeking ways to 
consolidate space and resources will continue to be management 
objectives going forward. Efforts will build on several multi-year 
actions to reduce Interior's nationwide facilities footprint and 
improve the efficiency and effectiveness of its information technology 
infrastructure and financial reporting capabilities. Ensuring 
Interior's cybersecurity strength continues to be a priority. The 2018 
budget maintains $10.0 million in the appropriated working capital fund 
to continue the Department's remediation of its cybersecurity systems 
and processes.
                           bureau highlights
    Bureau of Land Management.--The 2018 request for the BLM is $1.1 
billion, a decrease of $162.7 million below the 2017 CR level and 
$180.5 million below the 2017 enacted level. The budget proposes $963.2 
million for Management of Lands and Resources and $89.8 million for 
Oregon and California Grant Lands, BLM's two primary operational 
appropriation accounts.
    The BLM request features increases in oil, gas and coal management 
programs reflecting national energy security priorities. The budget 
proposes $75.9 million for Oil and Gas Management to support permitting 
and rights-of-way processing, streamline leasing, and modernize 
practices. The budget also includes $19.0 million to strengthen BLM's 
Coal Management program, an increase of $8.0 million from 2017.
    To maintain the BLM's land stewardship responsibilities, the budget 
includes $67.8 million for Rangeland Management and $70.7 million for 
the Wild Horse and Burro Management program. As part of a broader 
effort to consider all necessary options to manage the unsustainable 
growth of this program, the budget proposes to eliminate current 
appropriations language restricting the BLM's ability to use the tools 
provided in the Wild and Free-Roaming Horse and Burro Act and enable 
BLM to manage on-range herds more effectively and humanely. The budget 
also proposes $47.2 million for Recreation Resources Management and 
$27.7 million to continue support for the National Conservation Land 
areas.
    The budget includes $89.8 million for the Oregon and California 
Grant Lands programs. At this level, the budget prioritizes offering 
the allowable sale quantity in new resource management plans.
    Mineral development on Federal lands is important to the national 
economy. However, a long-standing challenge is to provide a fair return 
to taxpayers for the use of these natural resources without 
discouraging development. To meet this challenge, the Department will 
conduct a study starting in 2017 to evaluate the production and 
development of hardrock minerals from Federal lands. The review will 
include an analysis of revenue recovered by other entities, including 
other countries, which permit mining on their land. The Department will 
also consult with other appropriate agencies, such as the Department of 
Agriculture. The findings will be considered as part of ongoing efforts 
to improve agency management and streamline permitting related to 
natural resources produced from Federal lands.
    Bureau of Ocean Energy Management.--The 2018 President's budget for 
BOEM is $171.0 million, slightly above the 2017 CR level, including 
$114.2 million in current appropriations and $56.8 million in 
offsetting collections from rental receipts and cost recoveries. The 
budget maintains a level program by increasing appropriated funding by 
$35.5 million to address a commensurate shortfall in estimated 
offsetting rental receipts and cost recoveries. The 2018 budget 
features a $10.2 million increase to support the development of a new 
Five-Year Plan for the OCS Oil and Gas Leasing Program.
    Bureau of Safety and Environmental Enforcement.--The 2018 
President's budget request for BSEE is $204.9 million, slightly above 
the 2017 CR level, including $112.0 million in current appropriations 
and $92.9 million in offsetting collections from rental receipts, cost 
recoveries, and inspection fees. The budget maintains a strong offshore 
safety and environmental enforcement program by increasing 
appropriations and estimated inspection fee revenue to address 
anticipated shortfalls in offsetting rental receipts and other cost 
recoveries. The 2018 budget includes a $1.2 million increase for 
technical training to expand staff development efforts for BSEE's 
inspector, engineer, and geoscientist workforce, and $12.7 million for 
oil spill research, a reduction of $2.2 million from 2017.
    Office of Surface Mining Reclamation and Enforcement.--The 2018 
budget request for OSMRE is $129.4 million in current appropriations, 
$110.7 million below the 2017 CR level. The majority of this reduction 
reflects the elimination of $89.9 million for Abandoned Mine Lands 
Economic Development Grants. Although beneficial, funding for this 
pilot program overlaps with existing mandatory Abandoned Mine Lands 
grants which continue without any proposed changes. The budget includes 
$60.2 million for State and Tribal regulatory grants, a level 
consistent with anticipated State and Tribal program obligations.
    U.S. Geological Survey.--The 2018 budget request for the USGS is 
$922.2 million, $137.8 million below the 2017 CR level. The budget 
includes $70.9 million for satellite operations, which supports 
continued development of the Landsat 9 ground systems, supporting a 
launch date in early fiscal year 2021 to replace the Landsat 7 
satellite, which is reaching the end of its usable life.
    The request emphasizes energy and mineral development, supporting 
essential hazards monitoring, and providing scientific information to 
support decisionmaking by resource managers and policy makers. The 
budget maintains support for nationwide networks of more than 8,000 
streamgages and nearly 3,000 earthquake sensors. The request provides 
$17.3 million for nationwide efforts to counter invasive species and 
wildlife diseases such as white-nose syndrome and highly pathogenic 
avian influenza, and the budget maintains $17.3 million for 40 
cooperative research units that support State-specific needs, 
particularly related to fish and game species. It continues acquisition 
of modern elevation data for Alaska and the 3-year cycle of topographic 
map updates for the contiguous United States.
    The 2018 request proposes to realign the 2018 budget structure to 
create a new Land Resources activity to reflect focused science related 
to on-the-ground land management and adaptive management challenges. As 
part of this request, the budget proposes $17.4 million for the 
National and Regional Climate Adaptation Science Centers, reflecting 
the proposed consolidation of eight regional centers to four.
    Fish and Wildlife Service.--The 2018 President's budget requests 
$1.3 billion for FWS programs, a decrease of $202.9 million from the 
2017 CR level. The budget includes $1.2 billion for FWS operations, a 
decrease of $85.3 million below 2017. Within Resource Management, the 
budget prioritizes funding to maintain operations and maintenance for 
the National Wildlife Refuge System ($470.1 million) and the National 
Fish Hatchery System ($51.9 million). Funding will continue operations 
for all refuge areas and hatchery sites.
    The budget includes $225.2 million for Ecological Services programs 
with an emphasis on species recovery and planning consultation 
activities. Consistent with efforts to focus adaptive management 
related science within the USGS, the request proposes to eliminate 
funding for Science Support at $17.0 million and Landscape Conservation 
Cooperatives at $13.0 million.
    The budget is $118.6 million for FWS conservation grants including 
$52.8 million for State and Tribal Wildlife Grants, $33.6 million for 
the North American Wetlands Conservation Fund, $19.3 million for the 
Cooperative Endangered Species Conservation Fund, $9.0 million for the 
Multinational Species Conservation Fund, and $3.9 million for 
Neotropical Migratory Bird Conservation. Consistent with decreases in 
other land acquisition programs across the Department, the request 
proposes to eliminate funding for Cooperative Endangered Species 
Conservation Fund land acquisition grants.
    National Park Service.--The 2018 President's budget request for NPS 
is $2.6 billion, $296.6 million below the 2017 CR level.
    The budget proposes $2.2 billion for NPS operations. Within this 
account, funding is prioritized for the care and maintenance of 
existing resources. The budget includes $99.3 million for repair and 
rehabilitation projects, which addresses the deferred maintenance 
backlog, as well as $112.7 million for cyclic maintenance projects, 
which ensures maintenance is conducted in a timely fashion to avoid 
increasing the deferred maintenance backlog.
    The budget proposes $226.5 million for Construction projects, an 
increase of $34.0 million to help address deferred maintenance and 
allow for targeted and measurable upgrades to a number of the NPS's 
highest priority assets. Within this request is $18.2 million for phase 
one construction requirements for the Arlington Memorial Bridge. Also 
included in the request is $15.0 million in appropriated funds for the 
Centennial Challenge program to provide the Federal match to leverage 
partner donations for signature projects and programs. An additional 
$15.0 million from fee revenue is also anticipated for 2018 to support 
Centennial projects.
    The request provides $37.0 million for National Recreation and 
Preservation programs to support local community efforts to preserve 
natural and cultural resources. The budget assumes savings of $18.8 
million from the proposed elimination of payments to National Heritage 
Areas. The 2018 budget includes $51.1 million for the Historic 
Preservation Fund core grants-in-aid programs. The budget proposes to 
shift support for Land and Water Conservation Fund State Grants from 
appropriated to mandatory funding comparable to an estimated $90 
million the program will receive from oil and gas activities from 
certain Gulf of Mexico offshore leases.
    Indian Affairs.--The 2018 President's budget request for Indian 
Affairs is $2.5 billion, $303.3 million below the 2017 CR level. 
Funding for Operation of Indian Programs totals $2.1 billion, a 
decrease of $181.1 million below 2017. In 2018, priority is given to 
programs serving the broadest audience rather than initiatives or 
pilots. Within this total is $786.4 million for Bureau of Indian 
Education programs where funding focuses on direct school operations 
and full funding for Tribal Grant Support Costs. The main operating 
account also includes $349.3 million for Public Safety and Justice 
programs and $277.5 million for Trust Services programs, which includes 
the elimination of the Tribal Climate Resilience program.
    The budget fully funds Contract Support Costs at $241.6 million, 
$35.4 million below 2017, which will cover all anticipated requirements 
at the requested program funding level. The budget requests $143.3 
million for Construction programs. The 2018 budget prioritizes dams, 
irrigation projects, and irrigation systems which deliver water to aid 
economic development as well as protect lives, resources, and property. 
The budget prioritizes funding within education construction for 
operations and maintenance of existing facilities. The budget also 
includes $14.0 million to provide payments to ongoing Indian Land and 
Water settlements and $6.7 million for the Indian Guaranteed Loan 
Program.
Departmental Offices
    Office of the Secretary.--The 2018 budget request for Departmental 
Operations is $123.9 million, $596.5 million below the 2017 CR. The 
majority of this reduction is $451.1 million associated with the shift 
of the Payments in Lieu of Taxes program which was appropriated within 
Departmental Operations in 2017. In 2018, the budget proposes to fund 
PILT as discretionary funding within Department-wide Programs. The 
budget also reflects the proposed transfer of $140.3 million associated 
with the Office of Natural Resources Revenue to a new appropriation 
within Department-wide Programs. The proposed transfer of ONRR funding 
will increase transparency in the budget for the Department's energy 
revenue programs. The 2018 request for remaining Office of Secretary 
programs reflects a reduction of $4.0 million from central program 
management activities across the Office of the Secretary organization. 
Of this, $2.6 million is associated with reductions to the Office of 
Valuation Services consistent with the proposed Department-wide 
decrease for new land acquisition.
    Office of Insular Affairs.--The 2018 OIA budget request is $84.3 
million, $19.0 million below the 2017 CR. In addition, the majority of 
OIA's budget proposal reflects a request to fully fund the renegotiated 
Compact with Palau by transferring $123.9 million from the Department 
of Defense, rather than $13.1 million in extended incremental annual 
payments. The Compact is an important element of the Pacific national 
security strategy.
    Office of the Solicitor.--The 2018 budget proposes $65.7 million 
for the Office of the Solicitor, the same as the 2017 CR level, to 
provide legal counsel, administer the Department's ethics program, and 
help resolve legal issues among bureaus and offices as they fulfill 
their duties.
    Office of Inspector General.--The 2018 budget proposes $50.0 
million for the Office of Inspector General, the same as the 2017 CR 
level, to continue support for audit and investigations across the 
Department.
    Office of the Special Trustee for American Indians.--The 2018 
budget requests $119.4 million for OST, $19.4 million below the 2017 CR 
level. The budget proposes a $3.7 million reduction below 2017 in Field 
Operations reflecting prioritization of services to continue operations 
at the beneficiary call center. A reduction of $3.1 million is proposed 
within Historical Trust Accounting in expectation of reduced 
requirements. Smaller additional reductions are taken across the 
organization.
Department-wide Programs
    Payments in Lieu of Taxes.--The 2018 budget proposes $396.9 million 
in discretionary funding for PILT, a decrease of $54.3 million from the 
comparable 2017 CR level of $451.1 million appropriated in Departmental 
Operations in 2016. This is a reduction of 12 percent, commensurate 
with the Department of the Interior's overall reduction from 2017 CR 
budget levels.
    Office of Natural Resources Revenue.--The 2018 budget request 
includes $137.8 million for ONRR's receipts management programs, a 
decrease of $2.5 million below the comparable 2017 CR level of $140.3 
million. The 2018 budget request proposes to transfer ONRR's receipts 
management program from the Office of the Secretary's Departmental 
Operations account to a separate appropriation within Department-wide 
Programs to increase transparency of the program. The request includes 
$3.5 million for anticipated contract cost increases for the Minerals 
Revenue Management Support System.
    Central Hazardous Materials Fund.--The 2018 budget requests $2.0 
million for the Central Hazardous Materials Fund, $8.0 million below 
the 2017 CR. The budget request funds program management and legal 
staff. The program will fund the highest priority remediation projects 
based on the availability of recoveries and focus resources on 
remediation projects with potentially responsible parties.
    Wildland Fire Management.--The 2018 budget request for the Wildland 
Fire Management Program is $873.5 million. The total request represents 
a decrease of $118.3 million from the 2017 CR level for the Wildland 
Fire Management and FLAME accounts. At this level the request provides 
$389.4 million for Suppression Operations to fully fund the 10-year 
average. To streamline financial management processes and improve the 
efficiency in allocating suppression funding, the Department proposes 
to fund all suppression activities in the Wildland Fire Management 
account and eliminate the separate FLAME Wildfire Suppression Reserve 
Fund account once all current balances in the FLAME account are drawn 
down. The request also includes $322.2 million for Preparedness 
activities, essentially level with 2017, and $149.5 million for Fuels 
Management, $20.2 million below 2017.
    Natural Resource Damage Assessment and Restoration.--The 2018 
request for NRDAR is $4.6 million, a decrease of $3.2 million below the 
2017 CR level. The budget includes funding needed for ongoing damage 
assessments and restoration activities.
    Working Capital Fund.--The 2018 budget proposes $59.5 million for 
the appropriated portion of the Department's Working Capital Fund, a 
decrease of $7.5 million from the 2017 CR level. The reduction is from 
funds requested for the Financial and Business Management System which 
is proposed at $46.3 million. The request maintains $10.0 million for 
Department-wide Cybersecurity needs.
                         legislative proposals
    Bureau of Reclamation Title Transfer.--The administration is 
developing a proposal to better facilitate title transfer of 
Reclamation facilities to non-Federal entities when such transfers are 
beneficial to all parties. This proposal will allow local water 
managers to make their own decisions to improve water management at the 
local level, while allowing Reclamation to focus management efforts on 
projects with a greater Federal nexus.
    Cancel Southern Nevada Public Land Management Act Account 
Balances.--The budget proposes legislation to cancel $230.0 million in 
unobligated balances from the Southern Nevada Public Land Management 
Act program over a 3 year period. This would redirect a portion of the 
program balances to the Treasury for broader taxpayer use. The SNPLMA 
program is not proposed for elimination and viable conservation efforts 
will continue to be supported.
    Gulf of Mexico Energy Security Act Payments.--The administration 
proposes to repeal revenue sharing payments to four coastal States--
Alabama, Louisiana, Mississippi, and Texas--and their local 
governments, which are currently set to expand substantially starting 
in 2018. This proposal will ensure the sale of public resources from 
Federal waters owned by all Americans, benefits all Americans. 
Mandatory funding for LWCF State Grants would continue, but this 
legislative proposal would replace GOMESA's complicated allocation 
formula with a fixed annual appropriation of a comparable dollar 
amount, starting at $90.0 million in 2018 and increasing to $125.0 
million in 2022 and remaining at $125.0 million each year thereafter.
    Land and Water Conservation Fund.--The LWCF receipts authorization 
expires at the end of fiscal year 2018 and the administration will 
review options for reauthorization, including consideration of a range 
of conservation-related investments that could be funded through the 
LWCF.
    Oil and Gas Leasing in the Arctic National Wildlife Refuge.--The 
administration will propose legislation to allow oil and gas leasing in 
the coastal plain of the Arctic National Wildlife Refuge also known as 
the ``1002 area.'' The budget assumes lease sales would begin in 2022 
or 2023, allowing adequate time for the completion of appropriate 
environmental reviews and an updated assessment of the State of the oil 
and gas market and lease bidding potential prior to scheduling specific 
lease sales. An additional lease sale or sales would be held in 2026 or 
2027. Lease sales in the ANWR are estimated to generate $3.5 billion in 
bonus bids to be split between the U.S. Treasury and the State of 
Alaska. The proposal is estimated to generate a net of $1.8 billion in 
new revenue to the Treasury over 10 years.
    Reauthorize the Federal Land Transaction Facilitation Act.--The 
budget assumes permanent reauthorization of FLTFA's land sale 
authority, allowing Interior to dispose of lands with low conservation 
value and use the proceeds to acquire lands with higher conservation 
values, consistent with the original FLTFA mandate.
    Recreation Fee Program.--The budget proposes to permanently 
reauthorize the Federal Lands Recreation Enhancement Act, which 
currently expires in September 2018. As a precaution, appropriations 
language is also submitted with the budget proposing a 1 year extension 
through September 2019. The revenues collected by Interior from these 
recreation fees--nearly $290 million annually--are an important source 
of funding for land management operations, maintenance, and 
improvements to recreation facilities on public lands.
    Termination of EPAct Geothermal Payments to Counties.--The budget 
proposes to restore Federal geothermal leasing revenue allocations to 
the historical formula of 50 percent to the States and 50 percent to 
the U.S. Treasury by repealing Section 224(b) of the Energy Policy Act 
of 2005.
                    offsetting collections and fees
    Bureau of Safety and Environmental Enforcement Offshore Inspection 
Fees.--The budget includes appropriations language to amend the current 
fee structure for BSEE inspection fees to better align with BSEE's 
inspection practices and program costs. The language structures fees 
charged for the inspection of offshore facilities to distinguish 
between those ``without processing equipment'' or ``with processing 
equipment'' and incorporate consideration of the number of wells and 
water depth. These changes to the fee structure are estimated to 
generate $65.0 million in 2018.
    National Wildlife Refuge Damage Cost Recovery.--The budget includes 
appropriations language to authorize the FWS to retain recoveries from 
responsible parties to restore or replace damages they cause. This is 
similar to authorities provided to the NPS for damages to national 
parks and monuments.
                               conclusion
    Thank you for the opportunity to testify on the President's 2018 
budget request for the Department of the Interior.
    In closing, this is a responsible budget to help balance the 
Federal budget by 2027. It maintains core functions important to the 
American people, including providing the public the unique American 
experience that comes from visiting our parks, refuges, and public 
lands. It reflects tough choices to prioritize and focus limited 
resources where investments have the most impact, but continues to 
deliver access and services which are critical to Americans. I thank 
you again for your continued support of the Department's mission. I 
look forward to answering questions about this budget. This concludes 
my written statement.

    Senator Murkowski. Thank you, Mr. Secretary.
    We will now turn to questions. I am going to defer to 
Senator Alexander who has another commitment very shortly. So, 
Senator Alexander, if you want to kick off the questions.
    Senator Alexander. Madame Chairman, I greatly appreciate 
your courtesy. Thank you very much. And, Mr. Secretary, 
welcome. It is good to see you.

                        FISCAL YEAR 2018 BUDGET

    Respectfully, may I disagree with you about a balanced 
budget? This is not a balanced budget. Our budget is $4 
trillion. And I think all of us know that it is--we cannot 
pretend to balance the budget on the back of national defense, 
which you were so indispensably part of in your service to our 
country, national parks, national institutes of health, 
national laboratories. That spending is all under control. 
Since 2008, it has been flat. And it is projected by the 
Congressional Budget Office to be flat for the next several 
years just barely rising with inflation.
    The whole budget is $4 trillion. The part that is out of 
control is the mandatory spending and we need to work together 
to bring that under control or national defense, national 
parks, national laboratories, the national institutes of health 
will be squeezed into nothing.

                           CHIMNEY TOPS FIRES

    But let me ask my questions quickly. In your confirmation 
hearing you said that you would pay close attention to the 
individual fire review for the 2016 Chimney Tops Fire in the 
Smokies, in an area you know well. What is the status of the 
review of the Park's response to the wildfires?
    Secretary Zinke. We owe you a report. We are late on it. I 
expressed my priority to get it to you by the week's end, but 
we are overdue on that report. I have talked to Representative 
Poe as well and he shared the same concerns.
    Senator Alexander. Right.
    Secretary Zinke. I had the same concerns, of why that 
report is not submitted to you.
    Senator Alexander. I would appreciate your focus on it 
because that was a traumatizing event for the people in 
Tennessee and North Carolina. We lost lives. It destroyed half 
the economy of Gatlinburg and we would like your assistance in 
learning the lessons that we need to learn in order to avoid 
something like that happening again.

                  JAMES K. POLK SPECIAL RESOURCE STUDY

    On a more positive note, the Department has supported and 
recommended the second step on making the James K. Polk home in 
Tennessee a unit of the National Park Service. The Department 
supported a special resource study. It was in the energy bill 
that Senator Murkowski offered last year. I would think you 
would have a special interest in it because when James K. Polk 
was President the United States acquired a lot of the land that 
is now Montana. So my question is does the Department continue 
to support the special resource study for the James K. Polk 
home?
    Secretary Zinke. The Department's position on it is we 
follow Congress. We do support it and testified in favor of it, 
but it is a congressional authorization. Certainly if this body 
authorized it, we would be glad to take it in to our holding 
and go forth from there.

                    LAND AND WATER CONSERVATION FUND

    Senator Alexander. Thank you, Mr. Secretary. The Land and 
Water Conservation Fund, in the 1960s the Rockefeller 
Commission recommended it. Congress enacted it. The idea was to 
take an environmental burden and turn it into environmental 
benefit. And for 50 years we have tried to do that in this 
country with some spectacular success.
    In the mid-1980s, I was chairman of President Reagan's 
Commission on Americas Outdoors. We recommended permanent 
authorization of the Land and Water Conservation Fund. Last 
year Congress appropriated $400 million for it. Should have 
been $900, but it was $400. Your budget recommends $64 million. 
I thought I heard you say earlier that you supported the Land 
and Water Conservation Fund. What is your position on the Land 
and Water Conservation Fund today?
    Secretary Zinke. I do support and remain supportive of the 
Land and Water Conservation Fund. As you know, when you drop 
from $18 billion to $2.6 billion in revenue, the Land and Water 
Conservation Fund is funded primarily by offshore. I would like 
a permanent fix to the Land and Water Conservation Fund. The 
fund itself, as I understand, has about $20 billion, and 
structurally it goes from offshore into Treasury. Then it needs 
to be appropriated before we can actually expend the funds. 
That appropriation process has not been particularly smooth.
    Senator Alexander. Right.
    Secretary Zinke. The fund keeps on building. It is the same 
with the Reclamation Fund. There is money that was intended to 
do great things in reclamation and yet that fund, over the 
course of time, has ``accumulated'' about $18 billion.
    Senator Alexander. Right.
    Secretary Zinke. We need to look at using those funds as 
they were intended.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Senator Alexander. If I may ask one more in my time. I 
agree with you about the permanent fix to it, but it does not 
help to have the annual appropriation drop to $64 million when 
there ought to be $900 million. I have mentioned to you, we are 
very proud of our western parks and, you know, we are proud of 
the Smokies. Still we have the situation where the Smokies, 
which was given to the country, has twice as many visitors each 
year as the Grand Canyon, Rocky Mountain, Yosemite, and 
Yellowstone, but has less appropriation and no fee because when 
the Smokies was given to the country, part of the deal with the 
United States was that there would not be an entrance fee.
    I hope you will continue to work with me and others from 
Tennessee and North Carolina to see that the Smokies receives 
at least the same appropriation as the western parks, 
especially when its total number of visitors is twice as much 
and when it does not have fee revenue available to help.
    I want to thank Chairman Murkowski for her courtesy in 
allowing me to ask these questions.
    Senator Murkowski. Thank you, Senator Alexander. Appreciate 
the direction there.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                        CONGRESSIONAL INQUIRIES

    Secretary Zinke, before we get to substantive issues, I 
wanted to raise a process concern. It is a longstanding 
practice for Members of this subcommittee of both parties to 
request information from your Department. Can you please 
confirm that you intend to continue the longstanding practice 
of responding to written questions and correspondence from both 
majority and minority Members of this subcommittee as quickly 
as possible?
    Secretary Zinke. Absolutely. And, in fact, on the House 
side, and I would offer the same thing with the Senate side, is 
I meet with House Members in a roundtable on both sides of the 
aisle quarterly. I intend to be the most transparent Interior 
Secretary in my lifetime, but I would offer the same thing to 
Members of the Senate in a roundtable form so we can discuss 
issues of significance and to be absolutely transparent and 
responsive. I think we should work together. That should be a 
policy. Public lands and the stewardship that it requires is 
not a partisan issue. It is an American issue.
    Senator Udall. And you will answer written questions from 
both minority and majority Members.
    Secretary Zinke. I look forward to it.
    Senator Udall. Okay. Well, as a follow up, I have not 
received answers to 11 letters that I have sent to the 
Department. Will you commit to reviewing those letters and to 
responding as soon as possible?
    Secretary Zinke. I will commit to reviewing them. If the 
requests are predecisional and involve executive privilege, I 
will talk to you about it personally, but I will be responsive.
    Senator Udall. You know, well, as far as I know, none of 
these have to do with executive privilege and they are overdue. 
You committed to answering them.
    Secretary Zinke. I will commit to answering if they do not 
involve predecisions or executive privilege. If I cannot answer 
them in writing, I will call you directly, sir, and be glad to 
discuss it with you.

                             REORGANIZATION

    Senator Udall. Thank you. Secretary Zinke, I would like to 
talk about your proposals to reorganize the Department and 
reduce your workforce. This subcommittee has an important role 
in shaping any future changes to the Department's organization 
and yet we have been left in the dark with regard to what your 
plans are.
    I was very troubled to hear reports late last week that 
dozens of the Department's senior career staff including BLM 
State Director for New Mexico, the Southwest Regional Director 
for the Fish and Wildlife Service, and newly installed Director 
of the Bureau of Indian Affairs have been directed to take new 
assignments in other bureaus or regions of the country. To make 
matters worse, we found out about these changes from the 
``Washington Post'' rather than hearing from your Department 
directly.
    It is my understanding that the scale of these changes is 
virtually without precedent. These staff members appear to have 
been transferred with no clear plan regarding how or whether 
their current positions will be filled. And I have heard that 
many of these changes are set to take place quickly, 
potentially by the end of the months. That means almost no 
notice to the affected staff or the affected programs, let 
alone to affected States or Tribal governments.
    I mentioned the BLM State Director, Amy Lueders, as an 
example of these staff members whose work impacts my State on a 
day to day basis. Amy has served as our BLM straight director 
for the past 2 years and she has been incredibly engaged and 
responsive. Quite frankly, I do not want New Mexico to lose her 
and I am very concerned about the impacts of the other changes 
as well.
    These senior executives have expertise specific to their 
current bureaus and they manage some of the most sensitive 
issues that affect New Mexico and Indian Tribes, yet we have no 
idea why these positions were selected for reassignment or how 
moving these individuals out of their current positions 
improves the management of the Department. We also do not know 
how these changes fit into the larger workforce plan for the 
Department that you have been directed by the OMB to assemble.
    Mr. Secretary, President Trump promised to run the 
Government like a business, but some of these personnel moves 
just do not make sense. It is like taking your head of 
marketing and putting them in charge of accounting. That is a 
bad business decision. Your workforce deserves better and the 
Congress deserves to know more about what is happening at the 
Department, so I would like to get some answers from you today.
    First, I would like to ask you to provide for the record a 
list of all positions that are impacted by these reassignments 
and a justification for why these positions have been selected, 
including any input from the senior executive services 
executive resources board by close of business on Friday, June 
23. I recognize that is a tight timeframe, but if these changes 
are taking place quickly this subcommittee needs to know what 
is happening. Will you commit to providing the information?
    Secretary Zinke. Well, first let me address the issue. The 
SES is far from unprecedented in moving people. The SES by 
definition gets moved. Secondly in the movements, we went full 
board in shifting people to either an area where their skills 
are better suited or getting people out of headquarters and 
moving them to the field.
    We had 330 million visitors through our parks last year. It 
is time maybe we look at a more Powell Pinchot model of 
reorganizing according to ecosystems and watersheds. Clearly 
the importance of making sure watersheds are effectively 
managed, wildlife corridors and trail systems match, and being 
a holistic approach because, within the Department of Interior 
and our sister bureaus, if you have a trout and a salmon in the 
same stream and that stream has irrigation or a dam on it, you 
have NOAA, through NMFS. You have Fish and Wildlife. You have 
Bureau of Reclamation. And you have the Army Corps of 
Engineers. If it runs past Tribal lands, you have BIA.
    There are five bureaus in one stream that are likely to 
have opinions that are unreconcilable. We need to look at our 
side to make sure we can manage our forest and our rivers more 
effectively. We are looking at pushing more resources out of 
Washington, out of our major centers of regions the way they 
are, and aligning them to work jointly.
    As far as the decisions go, I cannot give you a list 
because I do not know who is going to go because they have a 
choice. They were given notification through a board process 
lining up. They are given a choice and there is a privacy issue 
until they have made that choice. After they make the choice, I 
would be glad to give you a list, but until that time, until 
they make that decision, then I am going to honor the privacy 
part of it, which is part of our procedures and I believe it is 
under law.
    Senator Udall. Yes. So you will commit to giving me 
information?
    Secretary Zinke. I will commit to give the information as 
soon as they go through the privacy part of it, as soon as they 
make the decision. Then I would be glad to give you a list. But 
the list I can tell you----
    Senator Udall. Thank you, Mr. Secretary.
    Secretary Zinke [continuing]. The move was not 
unprecedented.
    Senator Murkowski. Thank you, Senator Udall.

                            OCS 5-YEAR PLAN

    Mr. Secretary, I mentioned in my opening statement that 
BOEM is holding a lease sale in Cook Inlet this morning. It 
prompts discussion for potential for the Chukchi and the 
Beaufort. The previous administration issued a draft 5-year 
plan for leasing in the OCS, January 29, 2015. It included 
areas in the Arctic OCS, one sale in the Chukchi, one in the 
Beaufort. Ten days after the election on November 18, the 
administration issued its 5-year plan which of course excluded 
these areas.
    So question for you this morning, the budget indicates that 
there will be resources to rewriting this 5-year plan, which we 
appreciate. Can you give me any kind of an update? You have to 
rewrite the entire plan. You cannot simply amend the existing 
one. So where do you see this in terms of timelines, in terms 
of resources, that will be required to process this review? Do 
you have an update for me on where we are with the 5-year lease 
sales?
    Secretary Zinke. I do. We looked at rearranging and rather 
than having the standard everything in sequence, which pushes 
the time out, we can do things simultaneously in many cases. We 
think the process will be about 2 and a half to 3 years, which 
will be less than the 5 years. We are taking the first step, 
which is the Federal Register Notice, asking for information 
and comments. It is going to be a very transparent process.
    In regards to the lease sale that is coming up, there is a 
gap of trust that has occurred. I will give you an example on 
the North Shore. When Shell commits $3.5 or $3.1 billion to a 
lease and the Fish and Wildlife moves them out to unproductive 
waters and they dig a dry hole, there is a little lack of trust 
there. When compensatory mitigation forces companies to pay 
millions of dollars of money to get a permit outside of that 
permit process, there is a little bit of breach of trust in 
that.
    We have to make sure that as partners we hold industry 
accountable, that we are transparent in what we are doing, but 
there is a reason why our revenue went from $18 billion to $2.6 
billion, and not all of it is oil and gas price, although that 
is some of it. A lot of it is we were not a good partner. Our 
rules became arbitrary. Permits were difficult to deal with. At 
the last minute, something else would be thrown in, 
compensatory mitigation. In some circles, it is known as 
extortion. That had a real chilling effect in our ability to be 
good partners. I am working very hard in making sure industry 
is held accountable, that we are transparent, but also we need 
to work with people rather than work against.

                             TRIBAL COURTS

    Senator Murkowski. Appreciate that. Let me ask about BIA 
Tribal court funding. Alaska is a Public Law 280 State and 
prior to fiscal year 2016, Public Law 280 States like Alaska 
did not receive Tribal court funding. We were able to include 
that in the budget, which was greatly welcome. There were some 
issues with rollout, but I think the program is on track.
    So, again, seeking an update here. You have proposed to 
completely eliminate a program that is getting off the ground 
in these Public Law 280 States, getting results, so I am a 
little bit confused about why there would be a specific 
reduction in this area where again the need is so great, so 
great. Also, to understand how we are doing with the initial 
$10 million that was allocated in the fiscal year 2016.

                          TRIBAL CONSULTATIONS

    And I know that with fiscal year 2017, we are just a little 
more than a month into this, but hoping to understand if Tribal 
consultation has begun, when it will begin, when the additional 
$10 million will be distributed. So a little bit of an update 
in terms of what we have laid down in 2016 with the funding 
there, and now 2017 with the consultation, but would really 
hope to get your commitment that this is a significant 
priority, again, in States particularly like Alaska where 
Tribal courts can offer a means of enforcement in areas where 
we simply have none and where the local Tribal leadership can 
be an extraordinary assist for us.

                             TRIBAL COURTS

    Secretary Zinke. Well, in regards to 2016, I think we have 
executed about 97 percent of the funding and we are consistent 
on that same funding level in 2017. You are correct. This 
budget eliminates funding for the pilot programs for Tribal 
courts. I will work with you on it because I see great value 
with it, in my experience with the Tribes in Montana. I will 
work with you on it and I would be glad to do so.

                          TRIBAL CONSULTATION

    Senator Murkowski. I would love to introduce you to some of 
our Tribal court judges. How about the Tribal consultations 
that are required as part of that fiscal year 2017? Have those 
consultations begun?
    Secretary Zinke. They have. I think we are on consistent to 
execute it as we did in 2016.
    Senator Murkowski. Great. Thank you.
    Senator Van Hollen.

                                 BUDGET

    Senator Van Hollen. Thank you, Madame Chair and Ranking 
Member. And Secretary, welcome you and your team. And I had 
planned to plunge right into some questions regarding the 
Department of Interior, but I do want to take a moment given 
your comment at the outset about this is what a balanced budget 
looks like because I also serve on the Budget Committee.
    We had testimony from the Director of OMB, Mick Mulvaney, 
and it became very clear in the course of that hearing, number 
one, that this budget is not balanced. This is a budget that 
would make Enron accountants blush. The reality is the 
administration used incredibly unrealistic projections 
regarding future growth. They were unsubstantiated, which we 
would all like to see, but there was no basis for it to reach 
that claim.
    And to follow up on Senator Alexander's point, there are 
many components to the budget. Are you aware of what the 
Congressional Budget Office classified as the largest area of 
expenditures in the budget?
    Secretary Zinke. I am, sir. I was a Congressman.
    Senator Van Hollen. I know.
    Secretary Zinke. And I have an MBA in finance and look at 
it as well, but you are right and Senator Alexander, is that it 
is the non-discretionary side.
    Senator Van Hollen. Well, not only non-discretionary, but 
if you look at the non-discretionary side, tax expenditures, 
meaning special breaks and exemptions that are given to 
organizations more on the power they are lobbying than on the 
merits of their case are by far the largest even within 
mandatory expenditures. In other words, we spend more on tax 
expenditures than we do on social security on an annual basis. 
And yet this budget does not eliminate a single tax break, not 
for hedge fund owners who get a better break than the people 
who work for them, or anybody else. Not one penny of reduction 
and tax expenditures to help reduce the deficit.
    It is done very harshly on the side that relates primarily 
to our investment in our jobs and quality of life, national 
parks, and that kind of thing. So I really hope you will, as 
part of an administration, think of that going forward.

                             CHESAPEAKE BAY

    Now, the Chesapeake Bay is an incredible natural resource. 
And the States on a multistate basis and a bipartisan basis, 
Republican Governors, Democratic Governors, have over the years 
formed compacts to protect the Chesapeake Bay. In fact, the 
Department of Interior is a signatory to the 2014 Bay 
Agreement. The largest Federal agency involved in supporting 
Bay cleanup efforts is the EPA. This administration's budget 
wipes out entirely the EPA portion of Chesapeake Bay cleanup.
    But another important component and a critical glue to the 
process is funding by the U.S. Geological Survey. About $12.5 
million that is invested in scientific monitoring of the 
various aspects of the health of the Chesapeake Bay, essential 
information for all the other players.
    This budget cuts that in half. And my question is how do 
you expect your scientists, and you have a really good team 
there, to do their job and help protect the Bay with half the 
money?
    Secretary Zinke. First of all, I look forward to seeing the 
Senate version of the tax bill. Secondly, I have spent a lot of 
time, as you know, as a former SEAL in and out of the waters of 
the Chesapeake and I absolutely agree with you, it is a 
treasure. The USGS, which, as a geologist, I think is a 
terrific group of talented people. Within that, we did reduce 
some repetitive programs and their reduction was consistent 
across-the-board. You are correct that the budget includes 
about a $17 million cut for Chesapeake Bay activities. I will 
work on it with you.
    Senator Van Hollen. I appreciate that.
    Secretary Zinke. I do look at the budget as a starting 
point and it also allows me as a Secretary to have meaningful 
dialogue with you on the Senate side. I know the House side 
much better.
    Senator Van Hollen. Okay.
    Secretary Zinke. But a dialogue in the Senate side to see 
where the priorities are and where we can work together, I 
think is important.
    Senator Van Hollen. No, I appreciate that, Mr. Secretary, 
because it is an essential component, the Department of the 
Interior funding to the health of the Bay. And there are a 
couple of other accounts I will not go into now. I will have 
some follow up questions.

                        ATLANTIC SEISMIC TESTING

    But let me ask you about drilling in the Atlantic and 
seismic testing because the Bureau of Ocean Energy Management, 
BOEM, did a study a little while ago looking at the economies 
of the Eastern Shore of Maryland and other States on the mid 
Atlantic seaboard there and looking at Ocean City, concluded 
that 90 percent of the jobs there were as a result of tourism. 
People coming from all over Maryland, all over the region to 
Ocean City.
    And the Ocean City Chamber of Commerce has written to our 
Governor, Governor Hogan, a Republican Governor, and others 
expressing incredible alarm about the plan to fast track an 
effort for seismic testing and open this area potentially for 
drilling.
    The Obama administration, based on the Bureau of Ocean 
Energy Management report concluded it would be too great a risk 
to the livelihood of this area to open up that area for 
drilling and now this administration seems headed down a fast 
track effort to do it.
    My question to you and my request is, number one, to have a 
conversation about whether that makes sense, but second, as you 
proceed down this track, can you work with us to ensure that 
the public is engaged? Right now not a single public hearing is 
scheduled as part of the effort to engage in seismic testing.
    Secretary Zinke. A couple of things. I absolutely 
appreciate the East Coast. I spent time recently with a 
fisherman in the great State of Massachusetts. They are 
concerned about wind and their livelihood. Tourism is a part of 
certain fisheries, the energy potential offshore, so the East 
Coast has a lot of potential.
    Seismic, as a geologist part of my job as Interior 
Secretary is also to do an inventory of what we have. It is not 
my decision whether or not to go forward on drilling, per se, 
but I would like to know and I think we all would like to know 
what the assets are to include Alaska on 1002. It is not my 
decision whether or not to go forward with production, but it 
is my assessment that will give a better clarity of whether it 
can be mitigated or worth the effort. From a geology point of 
view, I do not know whether there are fields there or not. I do 
not know. A seismic test would give us a better clarity whether 
there is, whether there is gas or not. I think it is probably 
in our best interest to know so we can make a decision either 
way.
    Senator Van Hollen. Well, Mr. Secretary, I know my time is 
running out. I would like to pursue that conversation.
    Senator Murkowski. We will have an opportunity for a second 
round here.
    Senator Van Hollen. All right. Thank you.
    Senator Murkowski. Senator Daines.

                                 BUDGET

    Senator Daines. Thank you, Madame Chair. Secretary Zinke, 
welcome back. I can tell you the significance of your 
leadership at the Department of Interior to our great State of 
Montana cannot be overstated as well as your service to our 
Nation. And it is refreshing to have a Secretary of Interior 
who understands the importance of returning and restoring 
balance to multiple use on our public lands and the important 
role of fostering the government to government relationship 
with our Indian Tribes. You also understand the critical 
importance of setting priorities within spending constraints. 
Yesterday we talked about national parks. Today I would like to 
explore other important areas in your budget.
    As I said yesterday, I am happy to see your prioritization 
of energy development on public lands. We know in Montana how 
much our State relies on Federal coal, oil, and gas for good 
paying jobs, for tax revenues to support our infrastructure, 
teachers, schools, and our State. You mentioned yesterday that 
it was important to obtain a fair return for taxpayers. I 
sponsored a bill, an amendment in this very subcommittee last 
year to reinstate the royalty policy committee. I am very 
pleased that you have reinstated this committee and have 
included a request for implementation of that committee in your 
budget. I am hopeful we will support that request because I 
think this committee is a common sense way to ensure the 
taxpayer gets a fair return, the process is transparent and 
ensures our States, our Tribes, and our other stakeholders are 
part of the process to ensure the return is both fair and 
economical.
    Secretary Zinke, I have been noticing how much time you are 
spending out in the States, out on the front lines. It is your 
instincts to get out on the front lines with the folks, Federal 
employees who are serving this great Nation and serving the 
people, but importantly, out in the States to make sure the 
voice of the States and our Tribes is heard in these processes, 
and that is a breath of fresh air in the Department.

                    LAND AND WATER CONSERVATION FUND

    Part of facilitating public use and land use in Montana is 
facilitating access to our public lands. The LWCF is critically 
important. It is a tool that ensures that access and other 
common sense land management solution occurs.
    I understand your budget does not include any funding for 
new acquisitions, but does mention interest in working towards 
reauthorization. I will tell you I plan to work with this 
subcommittee to continue to fund this program in a meaningful 
way as we complete our appropriations. When Congress enacted 
the latest Omnibus Appropriations bill, incidentally what a 
tragedy to think we are 7 months into the fiscal year before 
Congress puts in place a spending bill. I hope we can do what 
we must do better this year.
    But when Congress did enact the latest Omnibus 
Appropriations bill to fund this fiscal year, we included some 
report language to direct fellow agencies to continue to 
prioritize projects. So my question, Mr. Secretary, is will you 
work with me on a path forward for this program, LWCF, and also 
ensure projects move smoothly and expeditiously through the 
prioritization process?
    Secretary Zinke. Well, I thank you, Senator, and 
absolutely. I will work with you. I think the long-term fix on 
the LWCF is in the interest of us all to give clarity in the 
out years.
    And to your point, I have spent a lot of time in the front 
line and I view Interior as being a large command and the place 
that the commander should be is in the front line. There are 
some observations. One is the front line is too thin. Our job 
satisfaction among even Park Service, we are at the bottom. Of 
land management organizations and bureaus, we rank 15 out of 
15. That is the Park Service. You would think the Park Service 
would be the greatest job ever.
    This is job satisfaction from employees. It bothers me we 
are not number one. I am a competitive person, but whether it 
has been micromanaged, the authority has been stripped from the 
front line, whether the resources have been regionalized up. 
There are a lot of reasons why. Too, in some places we have a 
culture of sexual discrimination and harassment. That has got 
to end. Zero tolerance. But I want to be number one in our Park 
Service and Fish and Wildlife and Department of Interior and I 
think as a steward of our public lands, I should demand that.
    But on land acquisitions, you point out the budget zeroes 
land acquisitions. When we are $11.5 billion behind in taking 
care of what we have, it is hard for me to justify additional 
land acquisitions unless we prioritize catching up on our 
maintenance.
    Senator Daines. Secretary Zinke, by the way, thanks for 
your comments on the issue of international parks. As the 
Chairman of the Subcommittee on Energy and Natural Resources 
for our national parks, the very first hearing that I conducted 
was regarding the sexual harassment and bullying that is 
occurring right now within our national park systems, the 
employees there. And I applaud your leadership, using the word 
zero tolerance. As a SEAL Team 6 member in your past, you know 
that leadership starts at the top and I appreciate your 
leadership in that important area.

                       BLACKFEET WATER SETTLEMENT

    I want to--my last question here as I am running out of 
time is regarding the Blackfeet Water Settlement. Upon your 
confirmation, I wrote you urging full funding of the Blackfeet 
Water Settlement that we worked hand in hand as a delegation 
last Congress to get across the finish line. I asked for $100 
million in fiscal year 2018. We were able to authorize $4.8 
million for implementation this year. As you know, the full 
funding must be appropriated by 2026. The question is will you 
work with us this year to plus up implementation of this 
settlement for this year and in the coming years?
    Secretary Zinke. I look forward to that. And a couple of 
comments. The $4.8 million, as you know, was authorized, 
unfortunately not appropriated. And then I have concerns about 
access to the account until it gets fully funded in 2026 
because if you do not allow access to the water projects, over 
time they could become more expensive. If it is part of their 
plan, as they develop their plan, is money becomes available 
and appropriated through the different sources. The Bureau of 
Reclamation has $10 million. I would be supportive of having 
the Blackfeet and other water compact Tribes to have access to 
those funds so they can get busy on the projects.
    Waiting in the out years until the fund is fully funded 
only assures it is going to be more expensive and it is going 
to be delayed. To me, it is better to put the working capital 
on the front line as soon as we can and give some flexibility 
to the Tribes to execute that plan.
    Senator Daines. All right. Thank you, Mr. Secretary. I will 
note that the Secretary was out in Yellowstone Park recently 
driving a snowplow getting the roads opened up here. So talk 
about the front lines. Thank you.
    Senator Murkowski. Well service.
    Senator Merkley.
    Senator Merkley. Thank you very much, Madame Chair, and 
welcome, Mr. Secretary.

                            SUDDEN OAK DEATH

    We have a water mold pathogen in Oregon, referred to as 
Sudden Oak Death, and it is a huge threat to our nursery 
industry. It involves about 18,000 acres of BLM land that has 
been quarantined and there is a mutation of it that is very 
threatening to our conifers, the Douglas fir trees and others. 
And so both the nursery industry and the forest industry is 
very concerned about this. Can I work with you to try to 
identify places where perhaps through the Forest Development 
Program is probably the likely place for BLM lands? I think we 
can get some funds to try to make this quarantine actually work 
effectively before it becomes a factor that either starts 
destroying our BLM forests or eliminates the ability to export 
nursery stock from some of the key ports in Oregon.
    Secretary Zinke. Thank you and go, Ducks. I was unaware of 
this, but you have my commitment to get on it. I am very 
concerned, as well as you are, about invasive species across 
the west, whether it is zebra mussels, pine beetles, white pine 
beetles, or this one. I look forward to working with you on it.
    Senator Merkley. Thank you.
    Secretary Zinke. Because I understand the importance of it.
    Senator Merkley. Thank you very much. Two of our key 
industries are very concerned about this. We have a bipartisan 
working group of experts, about 30 people, just immersed in 
holding meetings, but we need some Federal help, and thank you.

                            FIRE SUPPRESSION

    The second thing I wanted to raise was in regard to the 
Fire Suppression Fund. And it is funded, as you pointed out, at 
the 10-year average which means half the time statistically we 
are going to engage in fire borrowing where we shut down so 
many programs in order to address the forest fires. We would 
like to have a buffer in that world. Is that something you 
could consider examining and supporting?
    Secretary Zinke. Well, as you know, the budget prioritizes 
the removal of dead and dying trees and fire suppression. I 
think those that live in the west understand that and 
understand the ramifications of having too many dead and dying 
trees, but I will work with you on it. I think part of the 
solution is to go back to a healthy forest, and we can define 
through Congress what a healthy forest should look like. But 
you are right. Every time we get a forest fire, the magnitude 
we are getting, and we borrow to fight it.
    We have gotten a lot better fighting forest fires. There is 
some good news in there. The Joint Firefighting Unit out of 
Boise has done a good job between the bureaus, and that is a 
good model going forward.
    Senator Merkley. Well, I will continue the discussion with 
you. It is simply a situation where when we do exceed the 
account and have to shut down other programs, then even the 
removing the dead and dying trees, well, the prevention side 
gets robbed to pay the fire suppression side.

                WESTERN OREGON RESOURCE MANAGEMENT PLAN

    I wanted to turn to the Western Oregon Resource Management 
Plan. We have resource management plans, RMPs, that look to cut 
about 278 million board feet, but under this budget reductions, 
only about 200 million board feet would be possible to plan for 
and harvest. We would like to see meeting those RMPs. And I 
guess I really do not need a lot of comment from you. I just 
wanted to point out that it is a concern of having the 
resources to plan and operate the timber sales as envisioned.
    Secretary Zinke. I agree. And, obviously 270 million board 
feet is not a whole lot compared to what Oregon has had in the 
past, so being able to review accessibility to our timber 
industry would be helpful. You are aware it is about stock in. 
These smaller mills, they do not have the availability of stock 
and yet we have the catastrophic forest fires. I think we need 
to work together to make sure we have access to responsible, 
sustainable yield production and give these guys an operating 
chance with stability of timber coming in the door.
    Senator Merkley. Yes. Our mills really are depending on the 
public trees because the private trees are being exported to 
Japan and to China. The log decks that exist on the Columbia 
River and on the coast are frighteningly large and I just wish 
we could figure out a way to get all of those logs processed in 
our mills rather than them going out as raw resources.

                              METHANE RULE

    I wanted to turn to the methane rule 2 year, I think, 
postponement that you have enacted. That rule on both flaring 
and methane leaking was one developed through about 300,000 
public comments, 8 public forums, 5 years, and was sustained by 
the Senate. And is it your sense that--do you feel like you 
have the legal authority to simply set that rule aside?
    Secretary Zinke. I am not setting the rule aside. I intend 
to fully enforce the rule. We did put a notice to suspend on 
it, per the law, on it, but to be clear, my intent is to 
rewrite the rule because I think we both agree that flaring is 
wasteful. As the steward of our public lands, I just do not 
like to waste things. I do not know what the BTU wastes a year, 
but it is a lot. I would rather capture it, but you have to 
incentivize capture systems. You have to incentivize use. You 
have to incentivize injection. There are a lot of ways to 
capture it without it just being flared in the atmosphere and 
wasted.
    Senator Merkley. So I heard two things in that sentence 
that I am confused about. I heard fully enforce and I heard 
suspend. Clarify.
    Secretary Zinke. I would have registered it as a suspend, 
but until that time I am going to follow the law, sir.
    Senator Merkley. I see. Thank you. My time is expired. 
Thank you very much.
    Senator Murkowski. Senator Capito.
    Senator Capito. Thank you, Madame Chair. And welcome and 
thank you for your service, Mr. Secretary.

                 CANAAN VALLEY NATIONAL WILDLIFE REFUGE

    As I think most of us have issues within our State, so I am 
just going to go State specific on you. I would like to talk to 
you to ask to enlist your help regarding a priority of mine, 
which is the Canaan Valley National Wildlife Refuge. First and 
foremost, I would love for you to come and visit. I know you 
have been out and around. It is a quick, easy hop here from 
Washington DC.
    But as you are probably aware, or at least I know the 
Department is aware, we are in desperate need of a new 
visitor's center there. This is not just my opinion or desire. 
It has been a priority of the regional director and has been 
high up on the priority list for the last several years. We 
know that the refuge is a special place, but the visitor's 
center is really in an undesirable condition after earthquakes 
and fire. It is in an older kind of building and we get quite a 
few visitors there.
    But it looks as though in the budget that you are cutting 
the construction funds within the Fish and Wildlife. And so I 
guess I would like to enlist your help here. It could be part 
of an infrastructure package. It is way beyond time to try to 
make a new commitment here at the visitor's center, so I would 
just like some comment on that and also your comment on the 
cuts on the construction part of your budget.
    Secretary Zinke. Well, on the infrastructure side, I think 
we were net positive on it. I would love to work with you to 
find a path of either onshore or looking at offshore and new 
monies to have a sustainable influx of revenue to address 
infrastructure. We dropped $18 billion to $2.6 billion in 
revenue. That is $15.5 billion. On scale, we would have caught 
up everything plus had about $3 billion worth of investment.
    I am aware of the visitor's center and I am also aware that 
across the board our infrastructure is lacking. For those in 
DC, I invite you to go look at Arlington. It is hallowed ground 
up on top Lee's former home and is part of the national park 
system. It is a national disgrace. We let that building go 
through years of neglect. The shutters are in disrepair. The 
garden is in disrepair and it is hallowed ground. That is a 
reflection of where we are across our board.
    I am prioritizing infrastructure to fix what we have and I 
am excited to work with you to make sure we have a revenue 
stream to address it. The infrastructure package from the 
President is aware of that and that will be part of the 
priorities as I understand.
    Senator Capito. Good. Thank you. Thank you so much.

                         U.S. GEOLOGICAL SURVEY

    The other question--another question I have is on the 
reductions on the U.S. Geologic Survey, particularly on the 
ability to help predict and monitor flood, particularly fast 
flood events. On Friday, we will have the first anniversary of 
very tragic event in our State of West Virginia. We had a 
really quick devastating flood where we lost over 20 lives and 
countless destruction. It just--I was just visiting Clendenin, 
one of the communities on Monday and it is still rather jarring 
to see even a year later.
    How are you seeing that in terms of how it might impact the 
ability to use this data to predict floods? Do you see it as 
that part of it as endangered by cutting the budget or what is 
your perspective on that?
    Secretary Zinke. The USGS, it is amazing what we give 
grants to and what we do not give grants to. We are looking at 
every grant. We give on scale about $5.5 billion worth of 
grants and payments at the Department of Interior. Some of that 
money comes from USGS. We are going through painstakingly each 
of those grants and prioritizing public safety and shifting 
money to where we believe is the best bang for the buck, as 
well as reducing some of the redundant programs. There is 
duplication across it.
    And then focusing on core tasks and public safety at USGS 
as well as we are going to ask, no doubt, for a survey on our 
precious metals, do an inventory, and do straight stick geology 
101, field geology, because we are behind on it. We have to do 
an inventory and some of it will be in the great State.
    Senator Capito. Right.
    Secretary Zinke. Looking at what our inventories are 
offshore with seismic, onshore with what our precious metals 
and actually what the energy potential is in this country and 
where it is at. We believe that is an important core component 
of the USGS.

                            PRECIOUS METALS

    Senator Capito. I am glad to hear that because I think that 
has great promise as my understanding is we are not producing 
those special metals, even though we know they exist in our 
country and we are importing at great cost. And also I think we 
are going to be--at some point could be held hostage in terms 
of being able to secure those resources.

              WHITE SULPHUR SPRINGS NATIONAL FISH HATCHERY

    Just additionally, since I am running out of time, I did--
on the flood issue, I did want to mention that the National 
Fish Hatchery in White Sulphur Springs, West Virginia did 
suffer significant damage and it has been rebuilt amazingly 
quick. They still have some needs there to be able to get back 
and operating, but I just wanted to call your attention to the 
great work that those folks did to help their neighbors. 
Neighbors are helping neighbors in West Virginia. But also to 
the ability to get that hatchery back up and running again is 
appreciated and any additional help would be welcomed.
    Thank you, Mr. Secretary.
    Secretary Zinke. Thank you.
    Senator Murkowski. Thank you, Senator Capito.
    Senator Tester is next in line, but I think it has been 
agreed that Senator Leahy has a time crunch and so he will be 
given deference to go next if I understand correctly.
    Senator Leahy. And I apologize to Senator Tester. This is 
the second time this has happened. One thing of being vice-
chairman of the overall committee, this happens. Senator 
Tester, if you had to go, you go ahead.
    Senator Tester. No, I will go later.
    Senator Leahy. Mr. Secretary, you are no stranger to 
Capitol Hill from your earlier----
    Secretary Zinke. Unfortunately, that is true.
    Senator Leahy. Well, fortunately or unfortunately. I think 
you know that on this subcommittee there is a lot of 
bipartisanship and a commitment to protecting our Federal lands 
and sometimes increasingly fragile natural resources.

                             CLIMATE CHANGE

    We also have challenges posed by climate change. And I 
think this budget actually--proposal--and I realize we are 
cutting all over the place, but this fails in all these areas. 
I think it is going to endanger our Nation's natural and 
cultural resources.

                    LAND AND WATER CONSERVATION FUND

    Let me give you a couple of examples. The Land and Water 
Conservation Fund, the LWCF. For more than 50 years in States 
across the Nation, including my own of Vermont, the Land and 
Water Conservation Fund has been an important funding source 
for State and local outdoor recreation facilities. City parks 
serve as critical green infrastructure. Acquisition of public 
floors, wildlife refuges, park plants. We have benefitted from 
this LWCF in Vermont, but we have a lot more to accomplish.
    We have to protect important inholdings. We have willing 
sellers who want to sell to buffer the Appalachian National 
Scenic Trail, Vermont's long trail. We have to create and 
expand close to home parks without recreation facilities, not 
only for our young people, but for the next generations.
    During your confirmation process, you said that you wanted 
our parks to serve and inspire all Americans. I think every one 
of us agree with that. You said you would work with Congress to 
accomplish that goal. But with these budget cuts, how does that 
accomplish the goal to serve and inspire all Americans, all 
parts of the country, not just some.
    Secretary Zinke. Well, I appreciate the question and I 
appreciate being from the beautiful State of Vermont.
    On the LWCF, what was zeroed was additional land 
acquisition. It did not affect conservation, easements, et 
cetera. Because the position is that as long as we are $11.5 
billion behind in maintenance and backlog, we need to take care 
of what we have.
    Having said that, I have been a long supporter of the LWCF. 
I think there is a structural problem with it because the fund 
itself has about $20 billion or so and every year we do not 
appropriate the amount that was the intention of the law, and 
is a little different than what has occurred. Having stability 
for the LWCF program long-term, certainly I look forward to 
working with you.
    Senator Leahy. Will you--if it has not been used adequately 
in the past, are you going to be taking steps to make sure it 
is? I mean, there are some who would like it not to be used. 
They would rather be exploiting some of these lands. Will you 
give this your own personal attention?
    Secretary Zinke. Sir, I will because I am a steadfast 
admirer of Roosevelt and Pinchot and as the steward of our 
greatest lands, I take that responsibility very seriously. I 
think our public lands, particularly within Interior are our 
greatest treasures. I want to make sure that we not only 
protect them, we preserve them for generations to come. I think 
that is not a partisan issue. That is an American issue.

                INDIAN AFFAIRS PUBLIC SAFETY AND JUSTICE

    Senator Leahy. Let me go into another issue that does not 
often come up. Senator Crapo and I joined together a few years 
ago to reauthorize the Violence Against Women's Act. It was a 
good act, but it did not reflect adequately the needs of today. 
We added the LGBTQ community, we added Native Americans, and we 
added the sexual trafficking of children. It passed heavily in 
the Senate and then was taken up in the House and it was one of 
those that passed in the House without changing a word of it.
    Now, rates of domestic violence against Native women in 
Indian Country are among the highest in the United States. Both 
Senator Crapo and I, as bipartisan as you can get, wanted to 
confront this. I am deeply concerned that this budget cuts 
public safety and justice programs at the Bureau of Indian 
Affairs by more than $36 million from the fiscal year 2017 
enacted level, including a $23.5 million cut from Tribal 
courts.
    If you make these cuts how are we going to address the 
problems, the public safety problems, that continue to plague 
Tribal communities that come about through--long before your 
administration--but decades of underfunding for the Tribal 
criminal justice programs?
    Secretary Zinke. The budget does zero out the pilot 
program, but I will work with you. Again, the budget is an 
example of what a balanced budget would look like. It is a 
starting point. I certainly understand the importance of having 
a Tribe have flexibility within the structure to address some 
of the significant issues, to include education, to include 
drug enforcement.
    Many of the Tribes, the most effective treatment is within 
the Tribe itself rather than sending, if the Tribes are on a 
reservation, rather than sending individuals off the 
reservation, but have communication----
    Senator Leahy. But some of the stories of domestic and 
sexual violence are horrendous. I was a prosecutor. I do not 
remember--I remember seeing some pretty bad cases, but not as 
bad as some of the ones that came out in the testimony that 
Senator Crapo and I received.
    Secretary Zinke. There has been probably, examples of at 
least if not the most violent, certainly competitive, in the 
great Crow Nation recently. Recently the Cheyenne with 
Assiniboine Sioux, which I am proud to be an adopted member. 
Some of it is socioeconomic. Some of it is drugs. A lot of the 
Tribes are matriarchal, so when the mother and grandmother are 
involved with drugs, that sends the kids over to the aunts and 
uncles, which has another series of problems.
    You are right. In some of our Tribes the social fabric has 
been disrupted, and in many cases, near destroyed. I do think 
it is a community approach more than one size fits all.
    Senator Leahy. We are not looking for a one size fits all, 
but we want to have the remedies we had in the Violence Against 
Women Act that we all voted for to be there. And these cuts are 
going to make it difficult, so you and I should probably chat 
more.
    Secretary Zinke. And I look forward to working with you 
because I understand the importance of it.
    Senator Leahy. Thank you. Thank you.
    Senator Murkowski. Thank you, Senator Leahy. Know that I 
certainly support you in that endeavor and happy to work with 
you as well.
    Senator Hoeven.

                                 ENERGY

    Senator Hoeven. Thank you, Madame Chairman, Mr. Secretary. 
And to all of our guests today, thank you for being here and 
for your good work in the President's fiscal year 2018 budget 
proposal.
    Mr. Secretary, you proposed $791 million in funding for 
energy related programs across the Department. And that is an 
increase of about $16 million versus fiscal year 2017. So for 
traditional energy sources in the 2018 budget, there is an 
increase of $16 million. For the oil and gas program, an $8 
million for the coal management program to approve the 
application process, it says.
    So I am just wondering how are you intending to use these 
funds and, you know, what actions are you taking to kind of 
improve and streamline the regulatory process in regard to both 
oil and gas and the coal management?
    Secretary Zinke. Well, one of the reasons why the budget 
looks at energy is the President has said energy dominance. 
There is a lot of reasons why that is important. For Interior, 
one of the many reasons is revenue. We dropped $15.5 billion a 
year in revenue. While people are focused on $1.6 billion in 
savings, our revenue picture across the board needs to be 
shored up.
    Our park system entrance fees we are looking at, royalties 
across the board, whether it is oil, gas, wind. Anything that 
is commercially developed on public land, we are looking at 
royalties to make sure the taxpayer gets a fair value for it. 
The increase in energy looks at the permit process. The 
permitting process has too many loops in it where arbitrariness 
can either approve or disapprove a permit. We have to make sure 
that process is fair and transparent and trustworthy.
    A lot of the emphasis on energy has been simply to gain 
revenue so we can afford to pay for the infrastructure backlog. 
It is a question of just simply a balance sheet. You have 
revenues, expenses. When you look at cuts or savings in 
programs, not very many people like it, but the balance of it 
is when you have money in the bank then you can afford to spend 
money in the programs that we think are important.

                    REVENUE AND DEFERRED MAINTENANCE

    Senator Hoeven. So are you indicating then--I know you have 
a deferred maintenance backlog. I think for Interior, it is 
about $15 billion and national parks have 73 percent of that 
deferred maintenance. Are you saying that some of that revenue 
then can be used to help with some of your deferred maintenance 
challenge?
    Secretary Zinke. We are working with Members on both sides 
of the House to look at revenue streams, new money to carry 
over and directly pay for the infrastructure backlog. Yes, sir, 
we are. We think that is an opportunity. We are looking at 
public-private partnerships as part of it. I do not give 
judgment. The last administration did not look at revenue as 
the priority that I would and we are looking at that side of 
the balance sheet much more closely.
    Like you, I love clean air, clean water, and a lot of the 
programs that have savings in this budget, we think are 
valuable. With more revenue, we can afford to fund those.

                          VENTING AND FLARING

    Senator Hoeven. Sounds like some, you know, good thinking 
in terms of creative solutions and that is much appreciated. 
Talk for a minute about the BLM flaring rule. The Senate came 
very close to passing a CRA provision that would have rescinded 
it. That did not happen, so I know that you are undertaking 
review of that rule. Can you just give us a status update on 
that?
    Secretary Zinke. We have noticed to suspend, although I am 
going to follow the law, and as a former Congressman and former 
Naval officer, I do follow the law. But upfront, I think the 
rule should have been in a CRA. It would not have been easier 
to rewrite it. My intent is to go through the process, although 
it is going to be painstakingly slow. I am going to go through 
the process of rewriting it to make sure we incentivize 
capture, we incentivize use, and de-incentivize waste.
    As a public steward, I think it is wasteful to flare, but 
you have got to give incentives to make sure there are capture 
systems and it can be used for beneficial use. I look at it as 
a holding on public land and it is better to provide incentives 
either to inject, to move, to store, rather than just to flare 
and the rule will march along that line.
    Senator Hoeven. Do you have any estimated timeframe?
    Secretary Zinke. Well, I got sued six times in the first 
morning I was in the Department of Interior, so I would imagine 
I am going to be in Court over it. What should take 6 months 
will probably take a couple of years, but we will go through 
the process. We will do it legally and be transparent. There 
are going to be a number of periods, as there should, of public 
comment. I think that is a valuable part of our Democracy.

                   APPLICATIONS FOR PERMITS TO DRILL

    Senator Hoeven. There is something like 3,000 APD, 
Applications for Permit to Drill, on BLM lands pending. Are you 
willing to work with us to try to address that, streamlining 
that process?
    Secretary Zinke. I am and overall some of it is because we 
do not have personnel and there is additional budget to address 
that. Some of it is just a process and when the process becomes 
arbitrary, when you request a permit in the same basin where it 
has been consistently done before and that permit is viewed as 
a new start, that is probably not appropriate. We are looking 
at making sure that the process is fair, it is transparent, it 
is appropriate.
    I am a Boy Scout. I make sure I leave the campground in as 
good or better condition than I found it. If you are going to 
operate on public lands, I expect a reclamation project and a 
plan to restore those lands to its condition and I think that 
is part of being a steward of our public lands.
    Senator Hoeven. Right. And in a lot of these cases, BLM has 
a minority interest of the surface acres, so in a lot of cases, 
particularly with directional drilling, you may not even be 
disrupting surface acres. And again, that goes to what you are 
talking about, that this can be done with very good 
environmental stewardship.
    A final note I would point out just to kind of--from an 
anticipatory standpoint is I think North Dakota State plays the 
Ducks. You mentioned, go, Ducks earlier. I am not sure of this 
year, but I think next year. So looking forward to the game. 
You know, we might have to have a little wager or something.
    Secretary Zinke. I would entertain a wager of an IPA.
    Senator Hoeven. That sounds great.
    Senator Murkowski. Thank you, Senator Hoeven.
    Senator Tester, back to you, sir.
    Senator Tester. Thank you, Madame Chair. And I do not know 
if betting is allowed in Interior Appropriations Committee, but 
what the hell, you know? It is good to have you here, Secretary 
Zinke. Appreciate your willingness to serve.

                        VENTING AND FLARING RULE

    Just one point of reference. If that Congressional Review 
Act would have passed on the methane rule you would not have 
been writing any rule because it would have forbid you from 
writing rules. So hopefully you can go by what Congress has 
said here and do everything you can do to note waste that 
resource as you have pointed out in your testimony thus far.

                    LAND AND WATER CONSERVATION FUND

    I want to talk about LWCF because it has been talked about 
ad nauseum and it is good because it is being talked about 
because it is a good program. It is a program that works. It is 
a program that takes a checkerboard out of the landscape by 
using easements. This budget cuts it by $350 million. It was 
not exactly at a stellar level before. Remember, it was $900 
million to be funded at when it was first put in.
    Can you tell me how the President or you can put forth a 
budget that really lacks a vision by cutting this program by 
this kind of money?
    Secretary Zinke. I have long been a supporter of the LWCF 
program and you and I agree on that. Overall, the program has 
done great things for our country.
    Senator Tester. Yes.
    Secretary Zinke. Some has been an appropriations problem. 
As you know, within the account, there is about $20 billion.
    Senator Tester. Sorry. Are you talking there is $20 billion 
setting in an account right now that can be appropriated out?
    Secretary Zinke. There is $20 billion in Treasury. And part 
of the issue is--there is not money in there--is that the 
methodology is----
    Senator Tester. Okay. I got the methodology. Years ago in 
1965, we were supposed to take our offshore oil receipts and 
fund this program. So if you take from 1965 to today and the 
money that has been appropriated versus the money that was 
collected, you end up with $20 billion. The question is is 
there $20 billion in that account or has it been spent?
    Secretary Zinke. It is in Treasury.
    Senator Tester. So then if it is in Treasury and you want a 
balanced budget, it looks to me like you could have 
appropriated that at $900 million.
    Secretary Zinke. Well, I do not appropriate. That would 
be----
    Senator Tester. You could have recommended that 
appropriation within your budget.
    Secretary Zinke. But this has been structurally the LWCF 
program offshore, 38 percent was supposed to go in the program.
    Senator Tester. Yes.
    Secretary Zinke. And appropriated to the field.
    Senator Tester. Yes.
    Secretary Zinke. It does not get appropriated.
    Senator Tester. But----
    Secretary Zinke. Structurally, to change that would be if 
we are going to make the law do what the intention was is that 
it either goes direct or put caveats on it so a long-term 
appropriation at the right funding would be done. And I agree 
with that.
    Senator Tester. Do you agree with that? So you advocate to 
put it back to $900 million which is where the program was 
initially supposed to be?
    Secretary Zinke. What I advocate is for--and I am a 
supporter of it. It should have been rather than going into 
Treasury where now you have to get a loan to get it out of 
Treasury and make an offset, it would be nice structurally if 
it was stable where the income would go into its purpose and 
its purpose was the LWCF.
    Senator Tester. We had Secretary Perdue at one of these 
meetings last week, one of our subcommittee meetings. And I was 
telling him the same thing. You are Secretary of Interior. This 
is an important position. It is one of the reasons I supported 
you in this position is because of your support for LWCF, but 
we cannot sit here and make excuses.
    Either we are for it or we are not. And you know how good 
this program is. You know that these landscapes probably will 
not be here 10 years from now. And if what we do today makes a 
difference for those kids sitting behind you, the next 
generation of leaders for this country, and if we take away 
their opportunities--and I think land and water conservation, 
lack of funding in that does that, I do not think we are doing 
a service. And so I agree I know you are for it, but this 
budget does not indicate you are for it.
    Secretary Zinke. Well, what the budget does is it zeroes 
out new land acquisition. It does not zero out conservation 
easements.
    Senator Tester. Well, there is a ton of easements that will 
not get funded under this budget in Montana alone. And I cannot 
speak to what is going on in New Mexico or Oregon or any other 
place, but I can tell you that folks in Montana have read this 
budget and said, including myself, this is not going to do it.

                       PAYMENTS IN LIEU OF TAXES

    I want to talk about PILT. Cut--I think the Chairman talked 
about it or Lamar talked about. These are hand to mouth 
operations at county government. They do not have access unless 
they increase property taxes to pay for schools, roads, 
building operations. What was the idea behind cutting it 15 
percent?
    Secretary Zinke. Well, you are on appropriations. You may 
recall last year the discretionary request was zero, zero. This 
year was the first year we actually--well, this year in many 
years--we added $397 million in the discretionary request. That 
is a net change of $397 million to the positive on PILT, 
understanding it does not fully fund it.
    Senator Tester. In fiscal year 2017 we funded PILT at $465 
million. This year this budget says $396 million. That is a 15 
percent cut.
    Secretary Zinke. The previous President's budget had zero 
on PILT.
    Senator Tester. You know what? The previous President's 
budget, we fought with him too.
    Secretary Zinke. I understand that, but I would think it 
would be helpful to have $397 million rather than $0 as a 
starting point on a budget.
    Senator Tester. I think it--truthfully, if you talk to the 
county commissioners, and I know you have, you know what they 
will tell you.
    Secretary Zinke. They would say, and I would agree with 
them.
    Senator Tester. They would say fund it.
    Secretary Zinke [continuing]. PILT is a priority.
    Senator Tester. Yes.
    Secretary Zinke. But it is easier in this budget to have 
$397 million rather than $0 like the last President.

                            YELLOWSTONE MINE

    Senator Tester. I got you. One last question and it deals 
with the mine. We talked about this when you were a Congressman 
from Montana. It is the mine out of Yellowstone National Park. 
I understand that there are--it is open for comments at this 
point in time. Can you give me any indication what kind of 
comments you are getting on that mine on the potential that 
that does not ever happen?
    Secretary Zinke. As a Congressman, I stood opposed to it.
    Senator Tester. Yes.
    Secretary Zinke. I just did not see a process to go from A 
to point B on that mine.
    Senator Tester. Yes.
    Secretary Zinke. I will look. I have not followed the 
comments on that.
    Senator Tester. Okay.
    Secretary Zinke. But I will look.
    Senator Tester. If you could get back to me, I would love 
to know what the comments are on that. And in the end, 
hopefully we can get a permanent withdrawal. I have got a bill 
to do that.

                                  COAL

    One last thing, and I appreciate the flexibility from the 
Chairman, but you talked about fair revenue a number of times. 
And I agree with that and I think we ought to work with that, 
but it--I will not ask this question, but it does bring the 
question up. When we were doing a review of coal leases to get 
fair market value that has not been done in 20 years with the 
previous administration and I was pushing them to get it in 3 
years. When you took over, you pulled that off the table and 
that is not doing justice to taxpayers.
    Secretary Zinke. The coal, the revenue advisory committee 
looks at coal revenue as well as all of the above. I am a 
geologist and I do not consider myself a genius, but I am a 
pretty smart guy. When I cannot figure out how we do it, how we 
evaluate and get revenues in it, either the process is not as 
transparent as it should be or it is an arbitrary. Coal is part 
of that rent and royalty review as well as everything else 
across-the-board we do on interior lands.
    Senator Tester. Thank you for being here.
    Senator Murkowski. Thank you, Senator Tester.

                                 ARCTIC

    Mr. Secretary, I was in over at a gathering this morning 
over at the Wilson Center focused on the Arctic. And it is 
always a good day when I can start my day in Washington DC 
talking about the Arctic. When I look at the budgets not only 
within Interior, but the other subcommittees, I am always 
looking to see where have we, as an Arctic nation, placed the 
priority, the funding priority, in our budgets to work towards 
whether it is greater access to the Arctic, whether it is 
better understanding and working with our indigenous peoples, 
and a couple of questions for you this morning about where we 
are on some of these Arctic specific initiatives.

                        POLAR BEAR CO-MANAGEMENT

    And let me start first with polar bear co-management. Not 
too many of my colleagues get to talk about polar bears, so I 
think it is an important one. And had an opportunity to speak 
with some folks this morning just exactly about this. In the 
fiscal year 2017 Omnibus, we included report language related 
to the creation of a civil-based co-management regime for polar 
bears back in November of last year. The service published 
proposed rulemaking related to polar bears. It had two 
purposes. First, it solicits public comments on developing and 
administrating a co-management partnership with Alaska Natives 
and it also asks for preliminary ideas as the best method to 
ensure that take limits established by the Polar Bear Bilateral 
Commission for the Alaska Chukotka population are not exceeded.
    My understanding is that meetings on co-management between 
the Department and the Tribal governments were scheduled to 
take place in early June. I understand that these meetings were 
cancelled by the Department. I need some understanding this 
morning as where we stand with the co-management regime, what 
the timeframe is for this proposed rulemaking, and then 
further, making sure that I have your commitment and that of 
the folks within your department to work with Alaska Natives as 
we implement the treaty to ensure that decisions are being made 
on reliable, scientific information including incorporating the 
traditional knowledge from our Alaska Native people. So just an 
update on the co-management situation with our polar bear.
    Secretary Zinke. Well, I certainly appreciate and support 
that Alaska is different and Alaska has strategic, economic, 
and cultural value. In regards to the Interior Advisory 
Committees, I have 220 committees. I suspended them all until 
the different advisory committees could give me information who 
is on their board, what they have done in the last year, what 
they have done in the last 5 years, and their mission 
statement. Once I have that, then I am glad to unsuspend them. 
I just want to know what I am responsible for.
    If they had a meeting scheduled, all they had to do is ask 
for an exemption on it. I will see whether this particular 
board asked for an exemption. But if they had a critical 
meeting, like Acadia, there were some of them that had a 
meeting in June that was coming up. They wanted a meeting. Then 
there was a process in place that they could ask for an 
exemption and we would give it. Since I am responsible for 220 
boards, I just want to know who is on the board and what they 
are doing, which was a part of that.
    Senator Murkowski. Well, and I understand that. Also 
recognize that this is a bilateral commission that we have in 
place with Russia. So as we talk about how we can better 
involve our Native peoples in the co-management, this is 
something that is important not only for the polar bear. We 
have other commissions as they relate to management of other 
species, whether it is walrus, whale.

                              WALRUS IVORY

    And let me bring up the issue of walrus right now. As you 
know, our Alaska Native people have hunted walrus for 
centuries. The meat is a critical part of diet. The skins are 
used for skin boats for hunting. The tusks are turned into 
works of art. And literally it is the revenues that are derived 
from selling the ivory that allow so many to be able to either 
buy food, pay for their energy, put fuel in their boat so that 
they can continue hunting.
    The previous administration instituted a near total ban of 
domestic commercial trade of African elephant ivory. I want it 
clear for the record we have no African elephants in Alaska. We 
do not engage in anything that has to do with elephant ivory. 
Unfortunately, what has happened is there has been unintended 
negative consequences on the Alaska Native arts economy. We 
have had some States that have put complete bans on any ivory 
because they apparently are concerned that you cannot recognize 
walrus ivory, fossilized ivory. I am wearing an ivory bracelet. 
I have got ivory earrings on, all from walrus.
    But some States have said we are just going to avoid 
purchasing any walrus ivory and it has been wrongfully 
confiscated at some airports around the country. This is an 
issue that for many, many of our Native people is really very, 
very concerning. And at our AFN Convention last year, there was 
a roundtable conducted specifically on this issue.
    On top of all this, the service is required to make an ESA 
status determination on the walrus in fiscal year 2017 because 
of a multi-species settlement agreement that the Obama 
administration entered into in 2011. So I need you to commit to 
working with our Alaska Native leadership to educate Fish and 
Wildlife service personnel on the need to treat elephant ivory 
different than walrus ivory. And I would ask that you 
consider--I know you are not a big fan of working groups right 
now. I understand the review that you are on, but if you could 
look at forming a working group on this issue to ensure that 
our Alaska Native artists are able to continue the sale of 
these important artifacts.
    Secretary Zinke. Absolutely, and the ivory ban applies only 
to the African elephant. I think we will look at a Secretarial 
order to clarify the position. I will be glad to help you with 
it.
    Senator Murkowski. That would be great.

                        POLAR BEAR CO-MANAGEMENT

    Secretary Zinke. On co-management, I am an advocate of co-
management. I think a lot of the Native Alaskan Tribes, and in 
my brief introduction with them, they certainly have a culture 
of managing the species up there. Bears Ears is another 
example. I am an advocate for co-management. Part of the 
request was to have Congress authorize it. My understanding is 
I do not have the authority to authorize co-management, but you 
do. But I would be glad to help work with you in any way I can 
on legislation and certainly give our support behind co-
management. I think that is the appropriate path.
    Senator Murkowski. Thank you, sir.
    Senator Udall.
    Senator Udall. Thank you, Chair, Madame Chair. I believe 
Senator Merkley has a pressing other issue, so I am going to 
yield to you for your second round of questioning.
    Senator Merkley. Oh, that is very gracious and thank you 
very much.

                       PAYMENTS IN LIEU OF TAXES

    I wanted to echo the concerns about PILT that my colleague 
from Montana put forward. Very important to many of our 
counties in the west that have such a large percentage of 
Federal land.

                             INDIAN AFFAIRS

    And then I wanted to turn to the Bureau of Indian Affairs 
where the public safety budget is cut by $28 million and the 
Indian education by $64 million and the overall Bureau of 
Indian Affairs is cut by about $300 million, having a pretty 
profound effect on the 500 plus federally recognized Tribes.
    I know that the Chair and the Ranking Member also work very 
hard on these issues related to Indian affairs. And is this an 
area where you would seek the wisdom of the subcommittee, 
taking a phrase from the Agricultural Secretary?
    Secretary Zinke. I will always work with you and because I 
think it is important. Upfront, again, the budget was a 
starting point. I think the value of the budget, quite frankly, 
is to have these conversations that are frank, open, and 
informative. The budget funds core task and treaty obligations, 
but not much more. Many of the members have expressed concern 
about it and I will work with you and I look forward to working 
with you on it.

                            INDIAN EDUCATION

    Indian education is a particular concern. We spend more 
money per student by far than the national average and yet the 
results continue to lag behind.
    Senator Merkley. I appreciate your willingness to work with 
us. Thank you.

                             KLAMATH BASIN

    I want to turn to the Klamath Basin. We have a basin, 
agricultural basin, where the water is overallocated and 
adjudicated water rights have put the top rights going to the 
river and the lake very much a challenge for the ranchers and 
the farmers. And, in addition, the water rights, which are tied 
to the river and lake and also are tied--well, through the 
Tribal, the Klamath Tribe.
    The Tribe also had its--so its land was condemned in 1973 
and turned into a national forest and then in 1986 the Tribe 
was restored, so it was 13 years later. But when the Tribe was 
restored, the Federal Government did not return the land that 
they had condemned and turned into the Winema Forest. This is 
the only case like this in the history of our country that we 
are aware of where a reservation was turned into a national 
forest.
    So the groups have been trying to work out a deal that will 
involve a lot of funding for water conservation so the ranchers 
and farmers can thrive, but use a lot less water, which will 
make the river and lake healthier and address the salmon issues 
in the river and the fish issues in the lake. And the Tribe 
would obtain its forest back. This is complex, difficult, 
nearly came to an agreement. Did come to an agreement, but we 
did not get it through Congress in a timely basis. If we are 
going to reassemble the pieces of this and save the ranching, 
farming and save the fish in the stream, the whole thing, we 
are going to need a lot of help from the Interior Department. 
And I would ask if members of your team would be available to 
assist us as we try to work through a complicated 
reestablishment of a deal to address these issues.
    Secretary Zinke. Well, I look forward to working with you 
on it. I was briefed last week and you are right. It is dams 
and fisheries and Tribal obligations and forest service and 
Crater Lake. They called in the water rights and so Crater 
Lake, the U.S. Park Service, is having to ship water. 
Certainly, I think we can work together to find a solution, as 
difficult as the number of pieces are. There is certainly a 
solution that all parties can walk away with on this and we 
would be glad to help you with it.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Senator Merkley. I appreciate that a great deal. And then I 
wanted to try to understand the process on the ANWR right now. 
I believe that before Energy and Natural Resources you conveyed 
that Congress has the authority to authorize drilling, but that 
you have the authority to, I guess, prepare an understanding of 
the resources that are there. Are you planning to review 
seismic data or do new seismic testing or what is the plan 
currently?
    Secretary Zinke. It pertains only to the 1002 section, 
which was segregated separately by Congress. And, quite 
frankly, Congress has the authority and only the authority to 
authorize production to drilling. The 1002 is set aside. My 
charter is to assess. We are reviewing the U.S. Geological 
Survey data which has not been updated in a long time, which is 
my first blush at it. It is inaccurate.
    As the Department of Interior Secretary, I think it is an 
obligation to at least inventory our holdings to give Congress 
a better feeling for what is there so Congress can make the 
decision. That includes precious metals, rare earth. My 
intention is to go forward with the public process to do 
seismic testing off the coast of the Atlantic because I think 
part of my job is to make sure we inventory what we have and 
then it needs to be a public decision based on science on 
whether or not we go forward.
    Senator Merkley. Can that seismic testing that you are 
planning be done in a way that will not disturb the existing 
wildlife in the ANWR?
    Secretary Zinke. I am fairly confident it can. I was up in 
the North Shore. The technology today, and I had been on a rig 
earlier as a geologist, it was night and day. This is the 
harshest of all environments. What is occurring in technology 
on horizontal drilling, they are going in some cases 10 miles 
on a horizontal drill with little or no impact on adjacent 
areas.
    I am confident that the industry and American innovation 
can do things in an appropriate manner, but you have to hold 
people accountable too because trust, but verify, I think has 
been a very, very good phrase from President Reagan. I think 
part of the job is to make sure that, again, we are good 
stewards of the land and that means you return it to better 
condition than you found it.
    Senator Merkley. Sorry to interrupt you. My time is over 
and I want to respect that. If I understood correctly, then, 
yes, seismic testing using various technology, but any decision 
to actually recover oil would still rest with Congress.
    Secretary Zinke. That is correct, sir.
    Senator Merkley. Okay. Thank you very much.
    Senator Murkowski. Thank you, Senator Merkley.
    Senator Udall, I will now turn to you. I am going to pop 
out quickly and go ask a question over in another 
appropriations hearing just next door. I will be back.
    Senator Udall. Okay.
    Senator Murkowski. So you will probably have more than 6 
minutes, but I know you want to try to head over there too, so 
we will just swap out of here.
    Senator Udall. Okay.
    Senator Murkowski. Thank you.
    Senator Udall. Thank you, Madame Chair, and thank you, 
Senator Merkley, for that line of questioning there.
    Since he started with the 1002 area, you mentioned it is 
1002, or most call it the Arctic National Wildlife Refuge. I 
just wanted to note that there are some places that are just 
too special to develop and the Arctic National Wildlife Refuge 
I believe is one of them. I have been to the refuge. I have 
floated down the Hula Hula River. I have seen all the wildlife 
that is there, so I disagree with your budget proposal to drill 
there.

                             REORGANIZATION

    I wanted to ask you one more question about reorganization. 
We have no idea how your large reorganization proposal will 
affect the Bureau of Indian Affairs or Tribal programs. I am 
not sure how Tribes are supposed to conduct a meaningful 
consultation with the Department if no one has shared any 
details of a plan with them and how the final notice to 
reorganization consultation with Tribes will take place on June 
27 in the midst of the huge personnel changes that impact 
multiple Indian Affairs staff, including the acting assistant 
secretary and the BIA director.

                          TRIBAL CONSULTATION

    At this point, I am sure Tribes are wondering if this is 
consultation lip service, and rightfully so, because it seems 
like decisions have already been made regardless of their 
input. How much weight is the Department giving Tribal input 
received at these consultations? What changes should Tribes 
expect for the BIA?

                             REORGANIZATION

    Secretary Zinke. Well, we are finishing up the first round 
of listening sessions on the organization and here is where we 
are on it. I have talked to the Secretary of Agriculture, 
Secretary of Energy, the Vice-President. The organization is 
centered on how do we be more joint, how do we work together 
between the Forest Service and Department of Interior, whether 
it is Fish and Wildlife or Bureau of Land Management.
    I understand in the different regions if we take the tact 
of looking at organization based on Powell and watersheds, what 
would that look like considering that in 1906 when Pinchot and 
Roosevelt were around, a lot of the holdings have changed. You 
do not want to truncate a forest service. But we are looking at 
different areas, what it would look like, and then looking at 
the model of how we fight forest fires with our joint command 
up in Boise and how would functionally we look, given that the 
areas are much different as well as the populations are much 
different.
    If you go from Seattle down to San Francisco, the 
population is different on expectations of public lands. The 
watersheds are different. At the end of the day, I think that 
is appropriate that we work for the people and have to give 
some flexibility in the system.
    We are putting them together, certainly and absolutely the 
cases we are going to coordinate with you. As soon as we have, 
to a degree, a first blush so we can talk intelligently about 
it, how the divisions will be made, what our best guess of it 
will be. But we should have that within about 90 days. The 
Tribes will be a part of it.
    Not every part of Interior is going to be as affected as 
others. The Bureau of Indian Affairs, if you give it a grading, 
you know, how would you grade education? How would you grade 
Indian health? How would you grade our treaty obligations? You 
know, I would say our grades across the board have not been 
good.
    How do we look at providing our treaty obligations of 
service and what are the Tribes' ambitions. Because it is a 
mistake to lump all the Tribes as if they are monolithic. Even 
in Montana, the seven Tribes are uniquely different in culture, 
aspirations, ideas, resources. You have to respect the Tribes 
across this Nation are very, very different.
    Ultimately, our path to reorganization is going to honor 
sovereignty--it should mean something--self-determination, and 
respect. There is no chance that Interior is going to 
reorganize BIA without absolutely sitting down with the Tribes 
and Congress and working through what we all would agree would 
be a--the system as it is in place is not working well, so how 
do we sit down and improve it? I think everything is on the 
table.
    Senator Udall. You know, and I trust what you say there. 
You really want to consult and have them be a part of it. I 
know as a Congressman you did that with the Tribes in Montana 
and so I take you at your word that they are going to be 
meaningfully involved in this.
    I think if it--and you know this from dealing with Montana 
Tribes. I think if you go to Tribes and ask them to grade the 
Federal Government on consultation I think they would uniformly 
come out with an F on things. So we just need to--and it is a 
struggle because you have so many Tribes, but it is good to 
hear that you are going to work on that in a meaningful way.

                            INDIAN PROGRAMS

    Just months after taking office, President Trump attached a 
signing statement to the fiscal year 2017 spending bill that 
called into question the legality of programs that benefit 
Native Americans, Alaska Natives, and Native Hawaiians. Coupled 
with proposed budget cuts that would disproportionately affect 
Indian Country and your own recent statements about privatizing 
Indian lands, Indian Country is understandably concerned about 
what could be perceived as an attack on key principles 
underlying the United States trust obligations to Tribes.
    Secretary Zinke, can you give me a yes or no here on did 
you agree with the President's claim that Federal programs 
benefitting Native Americans including Native Hawaiians and 
Alaska Natives are potentially race-based and unconstitutional?
    Secretary Zinke. Well, first, to even allege that I would 
suggest privatizing is untrue. What I said, and I want to be 
clear about this, is the 1934 Indian Reorganization Act, which 
I know you are very familiar with, is that sovereignty should 
mean something. If a Tribe wants to go to something else, how 
do they do that? If a Tribe makes their own decision that they 
want to do something else as far as land trust, what is the 
process?
    And so openly there is not a process in place. I do think 
if we are going to honor sovereignty and a Tribe agrees whether 
they are going to go under the Department of Interior as far as 
their education experience or they want to do a different 
vehicle, sovereignty means that they should have that decision. 
So I think we should honor what sovereignty should mean and 
give Tribes choice, but it is up to the Tribe.
    It does not mean termination at all. What it means is 
working with the Tribes. There are some Tribes that are 
absolutely in a different position than others because they are 
not monolithic. I think you should honor the sovereignty of a 
Tribe, self-determination. If a Tribe feels strongly about a 
direction, then we should work with them as partners to 
accommodate that and be an advocate rather than an adversary.
    All too often the one size fits all idea that we are 
helping people sometimes in Washington results in actually we 
are doing harm, whether it is unintended consequences or not. 
Sometimes our policies do harm when they go to the field.
    Senator Udall. Yes. Well, thank you very much for 
clarifying that. I think that was one of the things that I 
wrote you a letter about to clarify that we both spoke, I 
think, to that Tribal group and they had questions about that 
and that is one of the letters.
    But could we go back to the do you agree with the 
President's claim that Federal programs benefiting Native 
Americans, including Native Hawaiians and Alaska Natives, are 
potentially race-based and unconstitutional? This has been a 
big issue up here on the Hill and many Tribes have approached 
us about that.
    Secretary Zinke. I am unaware of the President's 
statements, so in all fairness, I would have to read what the 
President has said and then I would have to ask him. Upfront, I 
think he--well, he is the greatest boss I ever worked for. He 
does not micromanage me. He asks me what I need. He has great 
respect for the Tribes. I know this to be true, but I will ask 
him. And I will get the statement and I will ask him on that 
and return.
    Senator Udall. Okay. That would be great. We will make sure 
you have the question and then look at the statements that were 
made and then give us a straightforward answer on that. We 
really appreciate it.

                           NATIONAL MONUMENTS

    Secretary Zinke, we already talked a little bit about Bears 
Ears, so I would like to turn to my home State of New Mexico 
where the Organ Mountains-Desert Peaks and the Rio Grande Del 
Norte National Monuments are located. These two monuments were 
developed through decades of public input to Congress and 
previous administrations and they were created with 
overwhelming public support. You and I, I think, have had a 
visit about those also and how strong that public support was.
    These monuments are also contributing to New Mexico's 
economy. Since the Rio Grande Del Norte Monument was 
established, BLM has reported a 21 percent boost in tax revenue 
for area hotels and visitation at Organ Mountains-Desert Peaks 
National Monument is up more than 150 percent creating up to 
$34 million in new economic activity.
    When you came to visit me during your confirmation we 
talked about this, yet your Department still chose to review 
the protected status of these two monuments as part of your 
broader review under the President's executive order. Mr. 
Secretary, I am sure you can see why I am concerned about the 
uncertainty regarding their future status. At the Energy 
hearing yesterday you seemed to suggest to Senator Gardner that 
the Canyons of the Ancient National Monument is not on the 
chopping block which tells me you are making progress with your 
internal reviews.
    Given that fact, I wanted to take the opportunity to ask 
you about the status of New Mexico's monuments. Will you commit 
to me today that you will respect the wishes of the vast 
majority of New Mexicans and maintain the existing boundaries 
of these two monuments?
    Secretary Zinke. Let me go through the process. I will come 
out. I am scheduled to come out to New Mexico in a couple of 
weeks and that was at the invitation of Senator Heinrich. The 
President asked me to look at monuments from 1996 forward, 
100,000 acres or greater, with the first due out of Bears Ears, 
which I did. The recommendation on Bears Ears, and it is going 
to have some bearing because we are going to be consistent on 
the recommendation. Bears Ears was 1.5 million acres. In scale, 
about 1.5 times the size of Glacier. Within Bears Ears, there 
is a monument. There is a U.S. Forest Service holding. There is 
a wilderness study area. There is BLM land. Most of it is 
almost all Federal land.
    Looking at what the Antiquities Act says is the smallest 
area compatible to the protection of the object, and that is 
the executive power. Also understand the Antiquities Act is 
unique. It does not require NEPA. It is singular in authority. 
It does not require a public review. The President has the 
authority to establish a monument. The first monument, as you 
know, was 1,200 acres. That was Devil's Tower, and 
controversial then. I would say over a course of time the 
monument's program and the law has been enormously beneficial 
to the United States.
    So on Bears Ears, I looked at it. I think the antiquities 
and the objects can be identified, segregated. We have not 
determined the boundaries, but it can be revised, the 
boundaries to isolate them and protect those antiquities. Part 
of my responsibility is to make sure the boundaries are set 
where I can actually execute my duty of protection.
    We are also going to ask Congress for three things: co-
management, authorization to co-manage the revised boundaries. 
We are going to ask Congress to review the lands within the 
memorial or monument because some of the lands, we think, are 
better under national recreation and national conservation 
areas because there is no object, per se. But that is a 
congressional decision and we are going to ask Congress to 
review it.
    Lastly, to clarify from Congress what happens when you put 
a monument over the top of a wilderness because a monument has 
its own proclamations and management, but a wilderness in many 
cases is more strict in its management. So what happens? What 
is the intent of Congress putting a monument over the top of a 
wilderness or wilderness study area?
    In the case of New Mexico, I do not want to rip a band-aid 
off of a monument that is settled. I talked to the Governor. I 
will talk to the congressional reps. I will talk to the county 
commissioners as I did on Bears Ears. If it is settled and 
people are happy with it, I find no reason to recommend any 
changes. There might be a recommended change on a proclamation 
if the community feels like the proclamation itself is either 
too stringent or needs to be clarified, I would certainly look 
at that.
    I look forward to be in the great State of New Mexico. My 
understanding is we are going to try to do it on a weekend. As 
soon as we solidify with your staff, you are certainly invited. 
My understanding is I might even get a horse ride through it.
    Senator Udall. I will know and we really appreciate you 
coming to New Mexico and we hope you will meet just like you 
talked about, with a wide range of stakeholders in terms of 
hearing what is actually happening on the ground. Thank you 
very much for that.
    Apparently, they need me over at the SAC-D hearing, so we 
are going to have a short recess. There are facilities back 
here. Give you a little short break and then I believe Chairman 
Murkowski will return here in a moment.
    Secretary Zinke. Very well.
    Senator Udall. Thank you very much, Mr. Chairman. Committee 
is in recess.
    [Recess]
    Senator Murkowski. Secretary, to keep you on the hot seat. 
I just passed the baton with Senator Udall in the hallway. I 
just have a few more questions if I may this morning. I figure 
between what I had yesterday with you on the Energy Committee 
and now this, if I have not gotten all my questions presented 
to you, I am not talking fast enough. So I will be relatively 
brief here this morning.

                          ALASKA LEGACY WELLS

    Yesterday I mentioned the issue of contaminated lands, 
lands that had been conveyed to our Alaska Native people that 
basically were transferred in a contaminated State. We did not 
really talk about the legacy wells. You briefly touched on the 
fact that we have been making some headway in plugging these 
legacy wells that were drilled back in the 40s on the National 
Petroleum Reserve.
    We have got a situation, again, where we cannot complete 
this unless the resources are there. The question for you is 
whether or not you--given the resources that you have included 
in this year's budget, can you keep on the timeline that we 
have discussed with the Department about doing the necessary 
cleanup given the budgetary constraints that we are facing? In 
other words, are we going to be able to maintain momentum or 
are we once again slowing down because of budgetary 
limitations?
    Secretary Zinke. Well, I appreciate the question. The 
statistics I have on it is that we are down from 50 to 31. We 
will be at about 25 wells at the end of 2018. The budget itself 
had an $8 million decrease in it. It had $14 million in it, an 
$8 million decrease because the conditions up there are 
difficult and it is fairly isolated and so it is expensive. The 
glide slope on this is that it would not be completed for 6 
years. I am unaware of what the agreement was, but at the 
present allocation, it would be 6 to 7 years.
    Senator Murkowski. Well, and I appreciate that. And this is 
something that as we move forward, you as Secretary here, know 
that I am going to be on you and your folks to make sure that 
we have a serious commitment of resources and prioritization to 
clean these wells up. My concern is that we got to the low 
hanging fruit first, the easy ones, the ones that were less 
expensive. We have done that remediation. We have been able to 
plug them successfully and now we are at the point where it is 
the harder ones. You point out that they are in more remote 
places.
    So instead of being able to do a cluster at one time and 
gain some efficiencies of scale, it is just more challenging. 
So we want to be working closely with you to see if, given the 
complexity of the ones that we are working on now, whether that 
is slowing things down, whether we need to increase these 
amounts, but we will work with you on that one.

                 U.S. GEOLOGICAL SURVEY NATURAL HAZARDS

    Let me talk a little bit about USGS and I think it was 
Senator Capito that mentioned a little bit of what we are 
seeing within USGS. There is a proposal to cut $27 million from 
this side. This is part of the budget that provides for early 
warning for certain hazards like volcanic eruptions, 
earthquakes, landslides. We live in a place where we see this. 
And Alaska is probably the most seismically active State in the 
country.
    We have got a system of earthquake monitors called the U.S. 
Array. It is currently operated by the National Science 
Foundation. These monitors are going to be decommissioned in 
2018. We have been working with USGS on the cost of 
transferring these stations from NSF to USGS. And in the 2017 
Omnibus, we included some funding to prepare a report that 
looks at the cost of acquiring this equipment as well as an 
implementation plan on how USGS would begin to work with moving 
out some additional seismic stations.
    So I do not know whether you are aware of this request. 
What we are trying to do is ensure that investments that have 
been made in this monitoring system are not just abandoned and 
looking to make sure that we are utilizing the technologies, 
but again this is a resource that is important and making sure 
that we can allow for a continuation is going to be something 
that we would ask for your assist on.
    Secretary Zinke. Well, I look forward to working with you 
on it. You know, obviously USGS, with my background, is near 
and dear. I think the seismic work has been overall excellent. 
I understand there is a program to convert the systems and I 
think we will move to maybe converting 10 to 16 of the systems 
this summer. The budget, I will work with you on the budget to 
make sure we prioritize, and this is under the guise of public 
safety.
    I was briefed by the University of Oregon. The President 
came to the office and there is exciting technology about 
extending some algorithms on early warning and how that early 
warning results to actions in the ground, moving the people, 
transportation systems, and that which I think would fall under 
public safety. But I look forward to working with you on it.

                            VOLCANO HAZARDS

    Senator Murkowski. Good. Good. Another area is the Volcano 
Hazard Program. We have included in this appropriations 
subcommittee funding over the years for deferred maintenance 
work on these monitors that help us with volcano early warning. 
I have been asked why do we even need this. Well, if you are in 
an airliner and you go through a cloud of ash you can drop out 
of the sky about 30,000 feet as a Korean jetliner had to do 
some years ago. Early warning is important.
    Right now we understand that some of these monitors are not 
in compliance with the FCC regulations and waivers may need to 
be submitted for analog monitors to stay in operation while we 
do this conversion to digital. So the Senate Interior bill 
included a directive for USGS to report back with a funding 
plan to basically do an assessment as to how many of these 
stations are out of compliance and then the cost of bringing 
them in.
    I do not know if that is on your radar screen, but that is 
something that we are following here on the subcommittee, so I 
just wanted to bring that to your attention as well.
    Secretary Zinke. I am aware of it and I have talked to 
Department of Transportation on not just this system, but 
others as the President's plan to go to a different system and 
what are the consequences on our side because we have, you 
know, a fifth of the interior of the United States. We have a 
lot of systems out there and we have our own aviation 
department also that we need to be compliant.
    We will run the numbers on that, what the consequence would 
be. I do not have the data yet, but as soon as I do, I would be 
glad to share it with you.

                             CONFIRMATIONS

    Senator Murkowski. Good enough. Good enough. Some of these 
are really quick. Again, just making sure that these are our 
issues that are in front of your people. And on that note, I 
realize you do not have a lot of your people yet. We are going 
to continue to push on your behalf. We would like to get Mr. 
Bernhardt working for you relatively quickly.
    Secretary Zinke. Madame Chairman, that has been a source of 
frustration, imminently qualified. He has been on the slate on 
or about when I was confirmed.
    Senator Murkowski. Yes.
    Secretary Zinke. And no progress.
    Senator Murkowski. We got him through the committee.
    Secretary Zinke. You did your part.
    Senator Murkowski. Yes.
    Secretary Zinke. We are hoping the Senate as a whole takes 
it up by a yay or nay vote, but it is not just that. As you 
know, I have critical people, Fish and Wildlife. I have Park 
Service. I have across the board to date I am the only 
confirmed member of Interior. I would have to believe it is 
willful to slow things down, which is disturbing because of all 
the departments--well, maybe not of all the departments--but 
certainly the Department of Interior should not be a partisan 
issue. Protecting our public lands should be an American issue 
and to have the right leadership in the right place, imminently 
qualified people.
    I am excited about our choice in USGS. I cannot think of a 
better person to have in there and yet it is just--in my 
opinion, it is being slow rolled. It is not the White House. 
The White House has approved the slate to their degree. They 
have to go through the Office of Government Ethics, but when 
you have 22 rounds of questions for an individual that has TS, 
SBI, SCI, and has been in government service and has done 
orbits around the Earth, I think they are pretty qualified 
people.
    Senator Murkowski. I share your frustration. You know, 
there are some who says, well, the process is slowed here in 
the Senate, and in fairness, we do see some of that. But you 
and I have talked about the good men and women that have been 
put forward that somehow or other end up in this dark hole 
somewhere. And I would sure like them to come out on the other 
side of that so we can move them through not this committee, 
but through the Energy Committee and get you the men and women 
that you need.
    As you know from this hearing today, the one you had 
yesterday, your appearance over on the House side, people are 
expecting you to work. I need you to get moving on a 5-year 
lease review. We have got things that we have got to be doing 
when it comes to land and water conservation, management of BLM 
lands, all of the concerns that you hear, but I do not think 
you have any more hours in your day than I do and you cannot be 
doing it all alone. And I know you have good and able staff 
that are there to just help with the day to day and we 
appreciate that too, but we have got to get you some help, sir, 
so.
    Secretary Zinke. I appreciate that. I hope troops are 
coming.
    Senator Murkowski. I hope troops are coming too. So I am 
going to very quickly raise a couple of very parochial issues.

          KAGALASKA ISLAND AND CHIRIKOF AND WOEWODSKI ISLANDS

    You and I have had an opportunity to talk about hunting and 
I think we share a love for hunting. One of the things that I 
do not think is necessarily appropriate though is when our 
Federal agencies embark on what I would view as almost a 
private hunt. And I know that they would probably get offended 
with my description of that. But what we saw a couple of years 
ago with Fish and Wildlife effectively conducting a caribou 
hunt on Kagalaska Island with the intention that we need to 
eradicate these rogue caribou that had swum across a channel 
from Adak, population maybe nine on a small island off of Adak.
    And the Fish and Wildlife Service chartered a boat to come 
from Kodiak all the way down to Adak. You have been out there, 
sir. You know that that is not a day trip. It is not 
inexpensive. And they basically went to go eradicate the area 
from these rogue caribou. We actually had to include language 
in the 2017 Omnibus that said, no, do not spend taxpayer 
dollars to do this.
    Similarly, we have cattle on Chirikof and Woewodski Islands 
that, again, an effort to use Federal dollars to remove these 
cattle that have been there for decades. So I am bringing these 
to your attention to make sure that you know that I am not of 
the mind that it makes good sense to use good taxpayer money to 
have our Federal wildlife service go out and engage in rogue 
caribou hunts or the cattle removal, so.
    Secretary Zinke. Well, Madame Chairman, we will comply with 
the subcommittee direction and there will be no hunts on the 
islands in question.

                              KARLUK LAKE

    Senator Murkowski. Okay. Karluk Lake. I do not know if you 
have heard about Karluk Lake. This is a beautiful lake on 
Kodiak, in the Kodiak National Wildlife Refuge area. The fiscal 
year 2017 Omnibus included language that directed the service 
to conduct a formal compatibility determination on whether 
nutrient enrichment in Karluk Lake for fish rehabilitation is 
compatible with the refuge's comprehensive conservation plan. 
And this is an issue that has a long history there.
    I would like to finally get some resolve here. I have asked 
the folks at Fish and Wildlife to revisit this. I would 
encourage you to work with stakeholders in Kodiak who have 
worked on this issue for a number of years, but I do not know 
if you have any updates on Karluk Lake. If you do not, I would 
certainly engage in discussion on that later.
    Secretary Zinke. My understanding is that, and I will see 
to it the Department is going to comply with the subcommittee's 
direction on that.
    Senator Murkowski. Great.
    Secretary Zinke. Because the direction is pretty clear.

                         COOPER LANDING BYPASS

    Senator Murkowski. I appreciate that. And then I am going 
to raise one more and this is relating to the Cooper Landing 
bypass. I wrote you earlier this spring to see if you could 
help us settle an issue, a land issue, in the State that would 
provide for a bypass route of the Sterling Highway at Cooper 
Landing. A bypass would allow for a--effectively moving away 
from the Kenai River, the Russian River, very popular rivers 
for fishing, very, very fruitful rivers. But the fear has 
always been because this road runs right by the river that if a 
truck goes off the road or there is some kind of a spill it 
could potentially do great damage to the great salmon that 
spawn in those rivers.
    Fifteen years ago, Congress passed the Russian River Lands 
Act. It settled a dispute, but for that solution to work, the 
Department needs to initiate a land exchange and we need Fish 
and Wildlife to facilitate the land exchange and the Forest 
Service to also work with us on a trail issue. I have raised 
this with the chief of the forest service, so just need to know 
whether you are willing to have your staff work with Forest 
Service and Federal Highway Administration to finally untangle 
this four decade long nightmare so that we can finally get this 
resolved.
    Secretary Zinke. Well, I am happy to report the Secretary 
of Agriculture and the Secretary of Transportation, we work 
together, we have regular meetings, and I am happy to say that 
we will engage in this.
    Senator Murkowski. Great.
    Secretary Zinke. Forty years, it does not seem appropriate 
for a bypass.

                               KING COVE

    Senator Murkowski. It seems like all of the things that we 
work on are 40 years. You know, the issue with King Cove and my 
10 mile, one-lane gravel, non-commercial use road is a 25, a 30 
year old debate. ANWR has been a 35-year old debate. Quite 
honestly, we get tired of these decade long battles. So we 
would love to get some resolution on some of these.
    I have talked long enough to make sure that my Ranking 
Member made it back, hopefully with an opportunity to ask 
questions in Defense across----
    Senator Udall. No, I am finished. I think the Secretary has 
been here long enough.
    Senator Murkowski. Yes.
    Senator Udall. I will ask any additional questions for the 
record.
    Senator Murkowski. Good.
    Senator Udall. I just wanted to go down and shake his hand 
as he was leaving.
    Senator Murkowski. Well, I think we are wrapped up. I think 
we have had a good several hours with the Secretary and his 
team. I appreciate his leadership. We will allow Members to 
submit questions for the record, and with that, we stand 
adjourned.

                          SUBCOMMITTEE RECESS

    [Whereupon, at 12:04 p.m., Wednesday, June 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
